<html>
<title> - HEARING ON RECOVERY ACT 160-DAY PROGRESS REPORT FOR TRANSPORTATION AND INFRASTRUCTURE PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



     RECOVERY ACT: 160-DAY PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS

=======================================================================

                                (111-56)

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
51-436 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)







                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Ashley, Hon. W. Ross, Assistant Administrator, Grant Programs, 
  Federal Emergency Management Agency............................     9
Costa, Anthony E., Acting Commissioner, Public Buildings Service, 
  General Services Administration................................     9
Hooks, Craig E., Acting Assistant Administrator for 
  Administration and Resources Management, Environmental 
  Protection Agency..............................................     9
Rajk, Martin J., Deputy Assistant Commandant for Resources and 
  Deputy Chief Financial Officer, U.S. Coast Guard...............     9
Salt, Terrence C., Acting Assistant Secretary of the Army (Civil 
  Works), U.S. Army Corps of Engineers...........................     9
Siggerud, Katherine A., Managing Director, Physical 
  Infrastructure Issues, U.S. Government Accountability Office...     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    52
Johnson, Hon. Eddie Bernice, of Texas............................    53
Mitchell, Hon. Harry E., of Arizona..............................    58
Oberstar, Hon. James L., of Minnesota............................    59

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ashley, Hon. W. Ross.............................................    65
Costa, Anthony E.................................................    71
Hooks, Craig E...................................................    79
Rajk, Martin J...................................................    90
Salt, Terrence C.................................................    97
Siggerud, Katherine A............................................   101

                       SUBMISSIONS FOR THE RECORD

Committee on Transportation and Infrastructure, Majority Staff:..
      Chart entitled, "Putting to Work Recovery Act Highway 
        Formula Funds"...........................................    xx
      Chart entitled, "T&I Committee Transparency and 
        Accountability Information by States and Formula Funding 
        under the American Recovery and Reinvestment Act of 2009 
        (P.L. 111-5) ("Recovery Act") Submissions Received by T&I 
        Committee (Data Reported as of June 30, 2009)............  xiii
      Graph entitled, "Percentage of Recovery Act Highway and 
        Transit Formula Funds Associated with Projects Out to Bid 
        as of June 30, 2009".....................................  xxii
      Report entitled, "The American Recovery and Reinvestment 
        Act of 2009 Transportation and Infrastructure Provisions 
        Implementation Status as of July 17, 2009"...............   xxv
Costa, Anthony E., Acting Commissioner, Public Buildings Service, 
  General Services Administration, response to request for 
  information from Rep. Mica, a Representative in Congress from 
  the State of Florida...........................................    25

                        ADDITIONS TO THE RECORD

Economic Development Administration, Dennis Alvord, Acting Deputy 
  Assistant Secretary of Commerce for Economic Development, 
  written testimony..............................................   117
International Boundary and Water Commission United States and 
  Mexico, C.W. "Bill" Ruth, United States Commissioner, written 
  testimony......................................................   121
Natural Resources Conservation Service, U.S. Department of 
  Agriculture, Dave White, Chief, written testimony..............   123
Smithsonian Institution, Dr. G. Wayne Clough, Secretary, written 
  testimony......................................................   128



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
HEARING ON RECOVERY ACT 160-DAY PROGRESS REPORT FOR TRANSPORTATION AND 
                        INFRASTRUCTURE PROGRAMS

                              ----------                              


                         Friday, July 31, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                            Washington, DC.
    The Committee met, pursuant to call, at 10:10 a.m., in Room 
2167, Rayburn House Office Building, Hon. James Oberstar 
[Chairman of the Committee] presiding.
    Mr. Oberstar. The Committee on Transportation and 
Infrastructure will come to order. For our work today we will 
review our third in our series of oversight of the operation, 
effectiveness and implementation of the Recovery Act, also 
known as stimulus. I would like to project on the screen three 
presentations that I think are important for understanding.
    There has been a great deal of discussion in the secular 
press of the Recovery Act and its ability to put money out into 
the job arena. And there are indeed other aspects of the 
stimulus recovery that are not working effectively, but the 
highway and transit portion, especially the highway formula 
funds, are in place and are working as we anticipated, except 
for a few States.
    And can we call up the first? Percentage of Recovery Act, 
highway projects, 59 percent obligated. That means States have 
committed their money to specific projects. 41 percent not 
obligated. That is still within the parameters of the law, 
although had our Committee version been the final language I 
think all of that would have been obligated. Remember, it was 
our Committee that moved a bill through Committee, and through 
the House to require obligation and projects within 90 days. 
That was changed in conference and at the request of the 
administration to 120 days. And that half of the funds needed 
to be out in the first 120 days and the other half in the next 
portion. But at any rate the 59 percent obligated is within the 
parameters.
    The next chart, projects out to bid. And there 49 percent, 
or $16.7 billion, out to bid and $17.6 billion not out to bid.
    Now I want to go to the flow charts. I think you need 
binoculars to read that. There are copies that will be handed 
out to all Members.
    Step one, February 17th the President signs the Recovery 
Act.
    Step two, the Federal Highway Administration apportions the 
highway formula funds to States. That was March 2nd. That was 
roughly 13, 14 days after signing the Federal Highway 
Administration told all the States what their entitlement would 
be.
    Step three, within 30 days of enactment our legislation 
required each Governor to certify to DOT that the State will 
maintain its effort in funding of the regular 80/20 program of 
transportation projects. Within 45 days, April 3rd, Governors 
had to certify that funds will be used to create jobs and 
promote economic growth and accept responsibility that 
infrastructure investment is the appropriate use of taxpayer 
dollars. We wanted that signed off, we wanted all Governors to 
buy in on it. We made that clear going back to 2008 when this 
Committee moved such legislation and it passed the House. We 
include that in the Recovery Act.
    Step four, this is now the point at which Federal Highway 
Administration approves the projects that the State has already 
signed off on and said they are going to commit to these 
projects. They were submitted to the Federal Highway 
Administration division office, normally approved within 1 or 2 
days.
    At step five the Federal role is complete, except for the 
periodic sending out of funds.
    The next steps are all up to the States. State following 
normal contracting procedures sends out invitation for bids. 
Contractors normally have 21 days to bid, depending on the size 
or complexity of the project. The bids come in, the State 
reviews the bids and awards contracts, and that process 
normally takes 4 to 30 days, again depending on complexity of 
the project. Then the contractor mobilizes and prepares to 
start work hiring new workers or calling back their existing 
staff. And then the State issues a notice to proceed. Work 
begins on those Recovery Act projects. That is another 10 to 30 
days. So in 90 days States have largely complied with the 
requirements of the act. It obligated the funds, they sent out 
the IFBs, they have received bids, they have awarded bids, they 
have resolved any disputes, as far as I can tell there haven't 
been any, and they have projects under way and they are 
continuing this process, it now continues, it is just rolling 
along. Then the latter part of that the State then submits its 
voucher to the Federal Highway Administration. And typically 
that voucher is fulfilled by an electronic overnight deposit by 
the Federal Highway Administration for each State.
    So let's go to the final fourth chart. So beginning March 
15th States are obligating projects, April 1st bids were going 
out, bids reviewed April 1st to May 10th, May 11th contracts 
have been awarded, May 12th, not the earliest actually, 13 days 
after Recovery Act signed Maryland had the first project under 
way on-site. And work begins on the project. Contractor reports 
job creation to the State and they are reporting to us every 30 
days.
    Now, I have asked for review of the best States. Wyoming 
has done the best job. 95.7 percent of their funds have been 
out to bid. They are the number one out of 51 jurisdictions, 85 
percent of their funds are under contract, 76 percent of 
projects are actually under way on the job site.
    Oklahoma, well, let's see, Iowa was second with 88 percent 
out to bid and 50 percent of projects under way. Unfortunately, 
Hawaii, Florida, and South Carolina rank at the bottom. Florida 
is 51st. And I notice Mr. Mica has impatience and even outright 
anger, with justification, a very high unemployment rate, as in 
my State, but for some reason only 2 percent of the funds are 
underway in the State of Florida, only 12 percent of the funds 
are under contract. And Hawaii and South Carolina are in that 
same neighborhood.
    We need to find out why. We have sent inquiries to State 
DOTs to find out what is causing their delay. But I can say 
this, that for the Federal side there was no red tape. The 
Federal Highway Administration and DOT did their job. They 
moved the funding out, got the projects under way, and we do 
have, as of June 30, 48,600 jobs on construction sites. That 
number is another 10,000 higher today, but that is not an 
official tabulation.
    Today we are going to concentrate more on the 
nontransportation features of the Recovery Act 160 days after 
enactment. I am troubled that there is considerable unevenness 
in the implementation in nonhighway and transit agencies. As of 
the end of June 1, 600,000 construction workers were out of 
work. That is 1 million construction jobs lost since the 
recession began in December of 2007.
    So we are today going to review the environmental projects; 
that is, those of the State revolving loan funds, the inland 
waterways, the public buildings. We are going to hear from the 
Government Accountability Office, whose report is splendid and 
agonizing for some, I should think, but on the whole I read 
every word of it late last night.
    While I have already cited the direct on-site jobs in our 
next report in September, we will have accounting for those 
supply chain jobs that were stimulated by on-site projects. 
Sand and gravel pit operators, the asphalt producers, the 
cement and ready mix producers, the steel and others, including 
landscaping business jobs that result from these stimulus 
projects. All of these account for jobs created, but we won't 
have those numbers until September, mid-September.
    Federal agencies under our Committee's jurisdiction have 
announced 9,356 transportation and nontransportation projects 
totaling $30.5 billion. The funds have been obligated for 8,200 
projects, totaling $24 billion. However, State revolving loan 
funds are not moving their projects out as fast as I 
anticipated and as fast as the SRF managers told us and this 
Committee that they would be able to do last December and early 
in January. And the American road and transportation builders 
have, and associated general contractors, have expressed their 
dismay that projects in these nonhighway portions of the 
stimulus are not moving out as quickly as they had hoped and we 
anticipated.
    So we are going to be hearing from EPA, Corps of Engineers, 
General Services, FEMA, Coast Guard, and the GAO this morning.
    I am happy to yield to my friend and Ranking Member Mr. 
Mica.
    Mr. Mica. Well, thank you. And thank you again for 
conducting this oversight hearing on the stimulus money. It is 
something we all pledged to do as that legislation moved 
forward, and very well intended legislation to improve the 
Nation's infrastructure and get people working.
    The Chairman has pointed out that we do have some concerns 
about the rate of which some of the money actually is being put 
into projects. I also have some concerns I want to express this 
morning about that. We saw the amount of obligated funds, and 
that has now increased to over the 50 percent mark. The problem 
is as of July 27th only $919 million, that is not billion, $919 
million, of $48 billion of DOT money has actually been spent. 
Given the calculation--and you know we estimate for every 
billion dollars in transportation infrastructure spending you 
can create 28,000 to 32,000, and if we use an average of--well, 
if we even take the high number it is less than 32,000 jobs 
have been created so far by the money that has been spent. Now, 
we do have of course obligated money. But in the meantime we 
have lost 1.5 million jobs nationally.
    Then I think we have to turn ourselves to some of not what 
we say but what some of those will testify. And I had a chance 
to preview the GAO testimony. And I am also concerned about 
that. We find that they say with most funded projects relating 
to transportation they focus on paving improvements. And there 
is nothing wrong with that, and I have to compliment the 
Department of Transportation and State Departments of 
Transportation for trying to pick the low hanging fruit, get 
the money out as soon as possible. But many of those jobs are 
short-term. Some of the money has been spent, and the jobs are 
already closed down.
    The problem we have is building the larger infrastructure 
projects that are multi-year, and you know significant in 
complexity, I have to admit that. But for example, we have 
heard many people take to the floor. Mr. Oberstar and I worked 
on the Minneapolis bridge restoration. That was done in record 
time, within budget. It sped up in less than 437 days, which 
normally takes 7 to 8 years to go.
    However, there are almost no projects of that nature that 
have been undertaken. And some of the efforts in the beginning 
when we looked at stimulus, as I said last time, were thwarted 
in the Senate to speed up the process and give the States the 
flexibility that they need to move forward, and also the 
encouragement and the kick in the pants, if necessary, to get 
those big projects going. But the information from GAO says 
only 12 percent of the funds has been obligated for bridge 
projects, and of that--well, an additional 6 percent is all we 
are going to see for new bridges. So while we have bridges 
crumbling, we have very few projects on the horizon of a large 
significant nature that will employ people long-term.
    The other problem Mr. Oberstar and I have is we made a--
well, we made a deal this week and we had an agreement to 
supply $7 billion to the trust fund. We tried to put in as much 
as we can to be responsible to keep the fund whole. We hope 
that gets done in the Senate now. But we are on a collision 
course to disaster, because in addition to not having stimulus 
authority to move forward in an expedited fashion to take on 
these big projects that employ people long-term, we are about 
to shut down the whole process if we don't have an 
authorization, with the current authorization, as we all know, 
expiring the 30th. And we put money in, we have current 
authorization, but we are approaching a collision course, 
folks.
    So we are going to need everybody's help to get behind us 
to find sources of funding, sources of backing, ways to 
expedite these projects. You can't tell me there isn't a 
community from sea to shining sea that doesn't need 
infrastructure improvements, and many of them need large 
projects. But unfortunately the stimulus package is leaving the 
big projects behind. We want no bridge or no project of 
national significance, regional or community significance, left 
behind. So we will hear that report today. It is not my words.
    And then finally the red tape. President Obama went to 
Elkhart, Indiana in February to push for passage of his 
stimulus package. In July, Jeff Taylor, the county highway 
engineer in Elkhart said, I have got, and I have said this 
before publicly and repeated not his words but my words, I have 
got an engineer working full time. And that is just about all 
he is doing is red tape every day, filling out forms, filling 
out forms. You will not see, you will not see stimulus used 
until next year because this is going to be all he is doing is 
that red tape.
    The final thing is again I went up to Boston recently. In 
the South I don't think of seasonable construction. We have got 
18 percent unemployment in construction in central Florida, and 
we would love to have those jobs now. The Chairman also said 
Florida is unfortunately lagging behind in getting the money 
out, too, for any projects, let alone big projects. But what 
scares me is we have got the winter season setting in which you 
don't think of again in the South. But many of the DOTs across 
the northern tier of the Nation will be shut down and it could 
be pretty grim this winter.
    So I am not a happy camper with this report, Mr. Chairman. 
But hopefully we can get some. And there are agencies that have 
gotten the money out pretty quickly. DOT has done I think the 
best they can. FAA, excellent work on their part, and others. 
So we just have to redouble our effort and roll up our sleeves.
    I yield back.
    Mr. Oberstar. I thank the gentleman for those observations. 
And I am too concerned about the report from Indiana about red 
tape. I have no idea why they have any kind of process issue, 
because in 2008 and beginning even in 2007 and all through 2008 
we asked AASHTO to survey their members, every State to give us 
through AASHTO a list of projects that were through right-of-
way acquisition, EIS, design and engineering, down to final 
design and engineering, ready to go to bid, all they need is 
the money. There should have been no red tape. If there is some 
processing, I think then we need to know about it. But it is at 
the State level, and I have no idea why several States are 
lagging behind in getting their projects out.
    So that is going to be the subject of continuing inquiry. 
And I said at the beginning we have this program, it is 
supposed to create jobs. We are not going to shield it behind a 
curtain. We are going to expose warts and all and find out what 
the problems are and fix it. Because if we can't create the 
jobs in this program how do you expect to do it in the long-
term, how do you expect to get those longer term 3, 4-year type 
projects out if you can't do the ones that already at the bid 
stage. So we are ready to roll here.
    Ms. Norton for 2 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. This is a 
very important hearing as we go out for August break. There is 
a significant difference between the funds that my Subcommittee 
has jurisdiction over, GSA, and in particular also FEMA, but 
particularly GSA. The difference is that unlike the States it 
is our Subcommittee and it is the Congress and the 
administration that is responsible for the work that has to be 
done, because that work is owned Federal buildings, and 
converting them into high performance green buildings, with a 
double bang for the taxpayer, that these buildings that serve 
the public, part of our Federal inventory going down the drain 
get fixed and we save enormous sums in energy.
    But we are accountable and the White House is accountable 
because there is no States involved here. Fifty States and four 
territories and the District of Columbia benefit from these 
funds, but it all leads back to GSA.
    Now, GSA is going to testify this morning, and I am going 
to allow them to indicate how far they have gone. I must say 
that I am right up front, Mr. Chairman, and I am very concerned 
about really a very small part of what they had to do, and that 
has to do with the apprenticeship program, particularly 
focusing on preapprenticeship so that there would not be 
unnecessary division between what amounts to hundreds of 
thousands of mostly white construction workers and minorities 
and women who have not been trained for many years because 
there has been no consistent training. So there is a small 
amount in the DOT, and there is a small amount in GSA.
    And I have to say, Mr. Chairman, I am very, very distressed 
that 160 days later, February 17th is when this bill was 
signed, they knew about this and worked on it even before. The 
RFP to award the small amount of money, only $3 million, is due 
back September 8th. So they have you know blown much of the 
building season.
    I think that what you are doing, Mr. Chairman, in insisting 
that we have these oversight hearings is very, very important. 
On the training money, for example, in 2000 you put in and this 
Committee put in money that would have allowed half a percent 
of State highway dollars to be used for training. The trained 
journeymen are aging out. States didn't use that money for 
training, they just used it to build. And so we have an aging 
construction workforce, and we have got to use this occasion 
when we are putting this big lump sum into construction and 
infrastructure to train for the first time people to replace 
those who are aging out and who we will need to rebuild our 
country.
    And thank you very much, Mr. Chairman.
    Mr. Oberstar. Thank you for raising that issue. For that 
very person I designating Ms. Napolitano to chair a task force 
to review the progress on minority workers and minority 
enterprises under the Recovery Act. And I think that you and 
she and I should get together and talk about this matter.
    Mr. LoBiondo. Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman, for holding this 
important hearing. Whether you voted for the American Recovery 
Reinvestment Act or opposed the legislation, we in Congress 
have the responsibility to ensure the money is spent for its 
intended purposes. Since the stimulus bill short-changed 
infrastructure investment, we have to conduct rigorous 
oversight on the allocation of these scarce resources, and I 
appreciate Mr. Oberstar's effort to do so. In some cases 
Congress did a poor job of picking and choosing which programs 
to fund. In other cases the administration seems to be rushing 
money out the door with little control over how the money is to 
be spent.
    Given the fact that the navigation projects and the flood 
damage reduction projects provide economic benefits to the 
Nation, I would like to see the administration and the Congress 
place a higher interest in the work of the Army Corps of 
Engineers. All of the Corps projects put people to work, which 
is another reason to put these investments high on the priority 
list.
    Thank you, Mr. Chairman, again for holding this very 
important hearing, and I look forward to hearing from the 
witnesses. And I yield back.
    Mr. Oberstar. Thank you very much, Mr. Boozman. I share 
your concern about the lagging investment from the Corps of 
Engineers. They were slow to get off the blocks with this 
program. There should have been much more money in the Corps. 
We had more in our House version of the bill. It was cut back 
in conference. And we are going to keep up the rigorous 
oversight. As I said, we have to show everything, warts and 
all. If it is working, fine. If it is not, we have to 
understand why, and there will be another hearing in 60 days.
    Ms. Johnson, Chair of the Water Resource Subcommittee.
    Ms. Johnson. Thank you very much, Mr. Chairman, for 
continuing on implementation of the American Recovery and 
Reinvestment Act. Successful implementation of this legislation 
is essential to our collective efforts to turn our economy 
around and create good well paying jobs here in America. While 
I understand some of the public criticism that the Recovery Act 
is not working fast enough and the recovery and the economy 
continues to lose jobs, if they heard the news earlier, the 
Gross National Product is improving. I would suggest that but 
for the enactment of the Recovery Act we would be in far worse 
shape today.
    That being said, I agree that the primary focus of the 
legislation was creation of jobs, and I am concerned that the 
creation of jobs has not been uniform across the agencies and 
programs under the jurisdiction of this Committee. Hopefully 
today we will hear some assurance that agencies understand the 
primary intent of this legislation to create jobs, while at the 
same time promoting accountability and openness in 
expenditures.
    I read the written testimony of the witnesses here this 
morning, and I commend them for the progress made thus far. I 
applaud the efforts of the Environmental Protection Agency for 
obligating over 83 percent of the clean water State revolving 
fund dollars to the individual States and for working through 
some of the implementation challenges of the buy-American 
provisions in the Recovery Act.
    And Mr. Chairman, I thank you for this time, and I am going 
to ask unanimous consent to file the rest of my statement. 
Thank you.
    Mr. Oberstar. Without objection, the statement will be 
included in the record. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank you for continuing to hold these regular hearings to 
ensure that we have visibility and accountability and 
transparency over the expenditure of every dime of funding 
provided for transportation-related purposes through the 
American Recovery and Reinvestment Act.
    As Chairman of the Subcommittee on Coast Guard and Maritime 
Transportation, I am particularly pleased to have the 
opportunity to review the Coast Guard's expenditure of the 
funding provided to it through the Recovery Act. The Coast 
Guard received Recovery Act funding for two main purposes: To 
fund the alteration or removal of bridges that pose a hazard to 
navigation through the Truman-Hobbs program, and to fund its 
own projects through its Acquisition Construction and 
Improvements accounting, the AC&I. For the Truman program the 
service received $142 million, which is being combined with 
monies previously appropriated to the programs to support the 
alteration of four bridges. For its AC&I account the service 
received $98 million, of which the service has indicated $88 
million will be expended to address the repair and 
rehabilitation needs of shore utilities.
    These Recovery Act funds were sorely needed, particularly 
those directed to the AC&I account, given that the Coast Guard 
has an estimated $1 billion backlog of on-shore facility 
maintenance and repair needs. That said, however, the 
President's fiscal year 2010 project requested only $10 million 
in capital funding for the Coast Guard's shore-based facilities 
and aid to navigation recapitalization projects. Failure to 
adequately fund the Coast Guard's shore-based facilities will 
only increase later maintenance and placement costs while 
leaving personnel in substandard conditions. Thus I would hope 
that the Recovery Act funds are not seen, Mr. Chairman, as a 
replacement for what should be regular and robust AC&I funding.
    Given the backlog of on-shore maintenance needs, however, I 
am also concerned by what appears to be the Coast Guard's very 
slow expenditure rate for these funds, and I anxiously look 
forward to discussing planned projects in more detail today.
    With that, I look forward to the testimony of all of our 
witnesses. And Mr. Chairman, with that I yield back.
    Mr. Oberstar. I thank the gentleman for the comments. And I 
want to assure Chairman Cummings that Federal agencies are 
subject to the same requirements of the States on maintenance 
of effort. These recovery funds should not be a replacement for 
their regularly scheduled program, and we will pursue that 
matter in the course of this hearing. You are right to raise 
that.
    And now Mr. Hooks, you are in the hot seat for EPA, and not 
so much EPA, but the State SRFs, who I must say I am very 
disappointed are lagging behind our expectations, including in 
my own State of Minnesota. So the floor is yours. I read your 
testimony last night.

TESTIMONY OF THE HON. W. ROSS ASHLEY, ASSISTANT ADMINISTRATOR, 
GRANT PROGRAMS, FEDERAL EMERGENCY MANAGEMENT AGENCY; ANTHONY E. 
 COSTA, ACTING COMMISSIONER, PUBLIC BUILDINGS SERVICE, GENERAL 
   SERVICES ADMINISTRATION; CRAIG E. HOOKS, ACTING ASSISTANT 
  ADMINISTRATOR FOR ADMINISTRATION AND RESOURCES MANAGEMENT, 
    ENVIRONMENTAL PROTECTION AGENCY; MARTIN J. RAJK, DEPUTY 
 ASSISTANT COMMANDANT FOR RESOURCES AND DEPUTY CHIEF FINANCIAL 
 OFFICER, U.S. COAST GUARD; TERRENCE C. SALT, ACTING ASSISTANT 
    SECRETARY OF THE ARMY (CIVIL WORKS), U.S. ARMY CORPS OF 
   ENGINEERS; AND KATHERINE A. SIGGERUD, MANAGING DIRECTOR, 
PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Hooks. Thank you, Mr. Chairman. Chairman Oberstar, 
Ranking Member Mica, and Members of the Committee, thank you 
for the opportunity to appear before you today to discuss EPA's 
implementation of the American Recovery and Reinvestment Act of 
2009. As Members of this Committee well know, we are in the 
midst of one of the most severe economic crises our Nation has 
seen. The Recovery Act provides $7.2 billion for specific 
programs administered by the EPA, the Clean Water Act SRF, the 
Drinking Water SRF, Superfund, Brownfields, Underground Storage 
Tanks and the Clean Diesel Programs.
    The programs targeted by EPA's portion of the Recovery Act 
funding addresses local specific community-based public health 
and environmental needs. Investing in these areas ensures that 
job creation, economic growth, and beneficial environmental 
results occur at the local level. Funding these programs will 
not only help our economic recovery, but they will protect and 
increase the number of green jobs, sustain communities, restore 
and preserve the economic viability of property, promote 
scientific advances and technological innovation and ensure a 
safer healthier environment.
    The majority of EPA's Recovery Act funds totaling $4.7 
billion are specified for programs under the jurisdiction of 
this Committee. The Clean Water Act SRF $4 billion, Superfund 
$600 million and Brownfields $100 million. As we award these 
funds, we continue to place a high priority on oversight, 
transparency and accountability.
    As the agency's senior accountable official, I established 
a steering committee comprised of senior managers from across 
the agency to monitor Recovery Act planning and implementation 
on a weekly basis. The Inspector General sits on this 
committee, and the Office of Management and Budget 
representatives are also routinely included. When recipient 
reporting begins in October we will be able to provide on the 
ground level details of spending and more importantly tangible 
results.
    Of the $7.2 billion made available to EPA thus far, we have 
already obligated to the States over $5.9 billion, over 82 
percent. And I am pleased to report that this number has nearly 
quadrupled since Administrator Jackson appeared before this 
Committee 3 months ago.
    We are also continuing to improve our processes in order to 
adapt to the new requirements of the Recovery Act, such as the 
Buy-American provision and the green project reserve. And you 
will see in my written testimony we have already made several 
success stories to tell as well.
    I look forward to continuing the work with this Committee, 
our Federal, State and tribal partners, and members of the 
public as we work to effectively implement the American 
Recovery and Reinvestment Act of 2009 with oversight, 
accountability and transparency.
    Thank you again for inviting me to testify today, and I 
look forward to answering any questions that you might have.
    Mr. Oberstar. Thank you, Mr. Hooks. We will have a number 
of questions for you. Mr. Salt, welcome back. When you first 
came before this Committee you had kind of a hard time. And you 
were very candid, and I appreciate that. So welcome back.
    Mr. Salt. Thank you, sir. Chairman Oberstar, Ranking Member 
Mica, distinguished Members of the Committee, I am Terrence 
``Rock'' Salt, Acting Assistant Secretary of the Army for Civil 
Works. Thank you for the opportunity to testify again to 
discuss the Army's implementation of the civil works 
appropriation within the American Recovery and Reinvestment Act 
of 2009.
    The accomplishment of Corps of Engineers civil works 
projects through the Recovery Act funding has begun to 
contribute to the Nation's safety, economy, environment, and 
quality of life. The Act provides funding to the Corps to 
achieve these results through the development and restoration 
of the Nation's water and related resources. Funding also 
supports our permitting activities for protection of the 
Nation's regulated waters and wetlands and cleanup of sites 
contaminated as a result of the Nation's early efforts to 
develop atomic weapons.
    All told, the discretionary funding for the civil works in 
the Recovery Act is $4.6 billion and is provided in six 
accounts. Within the total program, the majority of funds was 
provided for activities in the Operation and Maintenance and 
Construction accounts. As of July 17th, financial obligations 
totaled $694 million, of which $648 million were for contracts 
and outlays that totaled $84 million. Our most recent update as 
of July 24th raises the obligations total to $768 million; $708 
million of that is for contracts, with the outlay total raised 
to $100 million.
    More than half of the available Recovery Act funds for 
civil works are scheduled for financial obligation from May 
through September of 2009. During that period over 1,000 
contract actions are scheduled such as award of new contracts, 
options, or task orders. This brisk pace will continue through 
December 2009, at which time about two-thirds of the Civil 
Works Recovery Act funds will have been obligated.
    Through July 17th, awards to small businesses totaled $222 
million, or 34 percent of the total obligated. 73 percent of 
our contract actions to date involve small businesses, over 460 
actions. These numbers do not include the local small 
businesses that are hired by the larger companies as their 
subcontractors as they proceed with this work.
    The civil works projects funded with Recovery Act funds 
were selected to achieve most of the work through contracting 
and to award the contracts in a short period of time. We 
believe this approach maximizes private sector employment 
impacts. Stimulus effects begin with the contract award because 
that is when the contractor begins to hire workers, order 
materials and equipment, and take other steps to complete the 
work creating additional indirect benefits throughout the 
economy. As a result, we are finding that the stimulus impacts 
are more closely related to the visible start of Recovery Act 
projects and the contract awards for these projects rather than 
the subsequent outlays which provide payments to contractors 
for work they have completed or for supplies and equipment they 
have already purchased.
    Mr. Chairman, I appreciate your chart that you started our 
hearing with because it makes that point I was trying to make; 
a point you were making here as to how that stimulus part 
works.
    Just last week I was in Arizona and visited one of our 
Recovery Act project sites, the Tres Rios Ecosystem Restoration 
Project, and spoke to the representative of the contractor. In 
June, he was awarded a $12 million contract for work, and I 
asked him what the impact of this Recovery Act project was. He 
said, but for the Recovery Act, he would have shut down, he 
would have had to let go the contract team that he had on-site. 
He said he had 120 people directly related on the work, and 
when he added in his subcontractors it added up to 250 people 
just on that one contract.
    More importantly to me, though, was when I met with folks 
from the City of Phoenix. Their enthusiasm and their support 
for the project was partly with respect to the employment, but 
more importantly the fact that important work that wasn't able 
to be budgeted was being accomplished, work that is important 
to the city, important to the Federal interest and work that 
was meeting the goals of the Stimulus Act.
    I think we have to do a better job of explaining how this, 
not just in the job creation, but in the work that we are doing 
and the overall effect of the stimulus, is actually happening, 
and we are not doing a good enough job of explaining that.
    Overall, the investment of Civil Works Recovery Act funds 
will be invested in over 800 projects directly supporting over 
50,000 jobs. In addition to the direct job support, these 
investments will support numerous indirect jobs in industries 
supplying material and equipment.
    Finally, investment civil works projects create lasting 
positive economic impacts long after the short-term effects of 
the funded construction and maintenance or repair activities 
have faded. At $4.6 billion, the Recovery Act provides 
resources for the civil works program to ensure investments for 
important and high priority projects that will support the 
stimulus goals directed by the Congress.
    Thank you, Mr. Chairman and Members of the Committee, for 
this opportunity to testify on the Recovery Act program for the 
Army Corps of Engineers Civil Works program.
    Mr. Oberstar. Thank you, Mr. Secretary, for your testimony. 
I will have a number of questions when we conclude all the 
witnesses. And now Mr. Costa for Public Building Service.
    Mr. Costa. Thank you. And good morning, Chairman Oberstar, 
Ranking Member Mica, and Members of the Committee. My name is 
Tony Costa, and I am the Acting Commissioner of the General 
Services Administration's Public Building Service.
    Thank you for inviting me to appear before you today to 
discuss GSA's contributions to our Nation's economic recovery 
through the green modernization and construction of our 
buildings. I have submitted my written statement for the 
record. Today I will highlight the significant progress we have 
made since our Acting Administrator Paul Prouty testified in 
front of this Committee in April.
    On March 31st you received a list of 254 projects in all 50 
States, the District of Columbia and four U.S. Territories 
where GSA will spend $5.5 billion of Recovery Act funding to 
repair and green our existing Federal buildings and construct 
new high performance green buildings.
    Three months ago Mr. Prouty committed to this Committee 
that GSA would award $1 billion of Recovery Act funding by 
August 1st. I am pleased to report that we not only met that 
goal, we exceeded it. As of this morning our obligation stood 
at just under $1.1 billion. This first billion will fund 120 
projects in 42 States, plus the District of Columbia and Puerto 
Rico. It will allow GSA to construct six new land ports of 
entry, eight new Federal buildings and implement over 100 high 
performance green building projects in existing GSA buildings. 
At least 20 of these 120 projects are already under 
construction, the rest will begin soon.
    We intend to award the remaining funds on an equally 
aggressive schedule. The second billion dollars will be awarded 
by the end of the calendar year, with an additional $2 billion 
by the end of March 2010. In one year GSA will obligate $4 
billion, over three times the volume of work the Public 
Building Service typically awards in a year, and we are on 
track to obligate $5 billion by the end of fiscal year 2010. 
Over 70 percent of the funding will flow into the economy 
within the next 8 months.
    To get this work done we have streamlined our business 
processes to ensure these projects are delivered on time, on 
budget, and on green. We established standard scopes of work, 
performance specifications, technical guides, and contract 
templates to facilitate rapid project award. We have awarded 
national and regional contracts to support recovery reporting, 
tracking and contract management, and we are taking additional 
steps to accelerate contract execution.
    The investments we make in our public buildings will help 
stimulate job growth, reduce our backlog of repair and 
alteration needs, reduce energy consumption and improve 
environmental performance of our inventory. According to a 2008 
study assessing green building performance, green Federal 
buildings on average use one-quarter less energy than the 
national average, cost 13 percent lower to maintain, have 
higher tenant satisfaction, and emit one-third less carbon 
dioxide.
    Although behind schedule, I am also pleased to provide an 
update on the $3 million of Recovery Act funding provided for 
on-the-job preapprenticeship and apprenticeship training 
programs. Under these programs GSA will provide training 
opportunities for individuals affected by the economic 
downturn. A request for proposals for the apprenticeship and 
preapprenticeship programs was issued this morning to 
interested firms and community-based organizations. We 
anticipate multiple awards for preapprenticeship programs on 
September 9th.
    In closing, I would like to highlight that we have taken 
advantage of the current market conditions and have awarded 
projects at lower costs than we originally estimated. Our 
preliminary analyses show that our larger projects were awarded 
at 8 to 10 percent below the estimated cost. We will continue 
to take advantage of market conditions and identify and track 
all project savings.
    Chairman Oberstar, Ranking Member Mica and Members of this 
Committee, this concludes my prepared statement. I am thrilled 
to report that we have exceeded our original commitment of $1 
billion by August 1st. We look forward to working with you and 
Members of the Committee as we continue with this important 
work. I am pleased to answer any questions that you or any 
other Members of this Committee may have.
    Thank you.
    Mr. Oberstar. Thank you, Mr. Costa. We will have questions 
for you.
    And Mr. Ashley, Assistant Administrator For Grant Programs 
at FEMA, welcome. Glad to have you here.
    Mr. Ashley. Thank you, Mr. Chairman. Chairman Oberstar, 
Ranking Member Mica, and Members of the Committee, my name is 
Ross Ashley, and I serve as the Assistant Administrator at the 
Federal Emergency Management Agency's Grant Programs 
Directorate.
    On behalf of the Administrator Fugate, it is a privilege to 
appear before you today to discuss how FEMA is implementing the 
Assistance to Firefighters Fire Station Construction Grant 
Program as provided for under the American Recovery and 
Reinvestment Act of 2009, which will improve the capabilities 
of the Nation's Fire Service while aiding the economies of many 
American communities.
    FEMA's Grant Programs Directorate is comprised of dedicated 
professionals with years of experience in the planning, 
execution, management and monitoring of Federal grant programs. 
Currently, GPD manages 52 different disaster and nondisaster 
programs. GPD makes between 6,000 and 7.000 individual grants 
annually, which total between $7 billion and $10 billion in 
Federal financial assistance. GPD is proud of its 
professionalism. It is also proud of its record of cooperation 
with both the field, the constituents it serves, and with the 
Congress and the development of the programs it administers. 
Every grant program GPD develops and administers is marked by a 
high level of outreach, discussion, and collaboration with the 
communities, the individuals, and the stakeholders the grant 
program is designed to help.
    The Assistance to Firefighters Fire Station Construction 
Grant Program is no different. FEMA and GPD have a long record 
of working closely with the Nation's Fire Service. GPD's 
portfolio includes the Assistance to Firefighters Grant Program 
and the Staffing For Adequate Fire and Emergency Response or 
SAFER Grant Program. Our partnership with the Fire Service is 
demonstrated through the process by which each near AFG and 
SAFER programs are developed. Each year FEMA convenes a panel 
of Fire Service professionals to assist in the development of 
funding priorities for the coming year. This also provides an 
opportunity to discuss any changes in program requirements.
    The development of the Assistance to Firefighters Fire 
Station Construction Grant Program did not differ from the 
development of GPD's other AFG programs. As with the other AFG 
programs, GPD consulted and worked with a panel of Fire Service 
professionals representing the nine major Fire Service 
organizations to develop funding priorities and other 
implementation for the Fire Station Construction Grant Program. 
In keeping with the goals of the ARA to not only assist the 
Fire Service but more broadly assist in the economic 
revitalization of the communities fire departments serve, GPD 
collaborated with additional stakeholder organizations in the 
development of the Fire Station Construction Grant Program. 
These groups represent the Nation's towns, cities, counties and 
States and included the National Association of Counties, the 
National Governors' Association, the National League of Cities, 
U.S. Conference of Mayors, and many others.
    Our collaboration and outreach will extend through the Fire 
Station Construction Grant award process. Fire Station 
Construction Grant awards are competitive and will be based on 
the funding priorities provided by the Fire Service and on peer 
reviews by panels comprised of representatives of the Fire 
Service. The ARA provides a total of $787 billion, including 
additional Federal assistance to State and local communities. 
Of that, $510 million was provided to support FEMA's efforts to 
enhance the security of our Nation's ports and transit systems 
and to enhance the capabilities of the Nation's Fire Service by 
funding the construction, renovation or modification of fire 
stations. Specifically, the ARA designated $210 million to 
support these fire station construction and renovation efforts.
    On May 29, 2009, 100 days after ARA enactment, FEMA 
released the grant guidance and application materials for the 
Fire Station Construction Grant Program, thus opening the 
application period. It is our belief that this initiative will 
directly assist the Nation in achieving the objectives of the 
American Recovery and Reinvestment Act. Under the Fire Station 
Construction Grant Program, funds will be awarded directly to 
non-Federal fire departments or to State and local governments 
that fund or operate fire departments.
    Under Fire Station Construction Grants there is no match or 
cost share requirement, and Fire Station Construction Grant 
funds will cover 100 percent of the project's cost. The 
immediate result will be an infusion of funding that supports 
local construction. This local construction will in turn create 
new jobs, services, purchases and enhance essential services.
    The Fire Station Construction Grant funds are also a direct 
investment in public safety. Funding under this program will 
enable fire departments to replace or renovate unsafe or 
uninhabitable structures. These investments in infrastructure 
will enable fire departments to enhance response capabilities 
and fire protection coverage, better protecting communities 
from fire-related hazards and help ensure firefighter safety.
    To maximize the benefit of the ARA funding FEMA limited for 
each individual project within a grant application to $5 
million. There is, however, no limit on the number of projects 
that can be included in an application, as long as the total 
amount of funds requested does not exceed the $15 million 
statutory cap set forth by ARA.
    Fire Station Construction Grants application period closed 
on July 10, 2009. By the close GDP received over 6,000 Fire 
Station Construction Grant applications requesting a little 
over $9 billion in Federal assistance. Application reviews are 
currently under way, and we expect that all grants under the 
Fire Station Construction Program will be awarded before the 
end of the fiscal year.
    Mr. Chairman, I will conclude my statement by emphasizing 
the commitment that we at the Department of Homeland Security 
from Secretary Napolitano to Administrator Fugate to myself 
have for the goals of the American Recovery and Reinvestment 
Act in providing the critical assistance being made available 
through the Fire Station Construction Grant Program.
    Thank you, Mr. Chairman, Ranking Member Mica, and Members 
of the Committee, for allowing me to testify today. I am happy 
to answer any questions you may have on the subject.
    Mr. Oberstar. Thank you for your presentation. I do have a 
number of questions which I will come to.
    And now we have Mr. Rajk, Deputy Assistant Commandant for 
Resources at the Coast Guard. Welcome.
    Mr. Rajk. Thank you, sir. Good morning, Mr. Chairman and 
distinguished Members of the Committee. Thank you for the 
opportunity to speak with you today on the Coast Guard's 
progress in executing funding received through the American 
Recovery and Reinvestment Act. The strength of our service 
relies squarely on the dedication and courage of our people.
    Over the past year Coast Guard men and women continue the 
consistent trend of premier service to the public. They perform 
superbly in the heartland, the ports, at sea, and around the 
globe to safeguard America's maritime interests. Men and women 
of the Coast Guard require capable, safe, and reliable assets 
and facilities and funding to achieve mission success. I 
appreciate the Congress' recognition of these needs through 
your continued strong support of the Coast Guard.
    Specifically, with the $240 million appropriated in the 
Recovery Act, the Coast Guard is addressing critical priorities 
for the safe and unobstructed navigation on the Nation's 
waterways, service-wide shore infrastructure deficiencies, and 
replacing obsolete and often inoperable equipment on our high 
endurance cutters.
    With respect to bridges, there is $142 million, which 
permits completion of four projects to alter bridges identified 
by the Coast Guard under its Truman-Hobbs Act authority as 
unreasonably obstructive to navigation. These four bridges are 
older, with more narrow navigable openings, which result in 
significant risk to the people and cargo traveling on the 
bridges and the mariners transiting the openings.
    Completion of these construction projects will improve the 
safe and efficient navigation on U.S. waterways, will benefit 
the construction sector in local communities, avoids future 
costs to repair or fix structures and vessels and leverages the 
$120 million previously appropriated to these projects.
    Mr. Rajk. In total, the act funding results in a $262 
million positive stimulative impact on the economies of Iowa, 
Illinois, Alabama and Texas, as well as through national 
suppliers of equipment and materials associated with the bridge 
construction.
    Without the act funding, these projects would not have been 
able to begin construction this soon.
    As of today, we have obligated just over $51 million, or 36 
percent of the Iraq funds, and expect to have obligated 100 
percent by the end of this fiscal year. These four projects 
will create an estimated 1,200 jobs. Of the $98 million 
appropriated the for acquisition construction improvement of 
the Coast Guard's capital account, $88 million will be used for 
the construction, renovation and repair of vital shore 
facilities that provide support necessary to execute a full 
range of mission needs.
    An estimated 19 percent of this amount has been set aside 
for small business. This includes the $7 million already under 
contract for completing a 26-unit family housing project in 
southeast Alaska for the crew of the Coast Guard Cutter 
Sycamore.
    The remaining $10 million will address high-endurance 
cutter engineering changes. Over the past several years, the 
Coast Guard's aging high-endurance cutters have experienced a 
significant increase in major system casualties, resulting in 
over 300 lost cutter days per year.
    These engineering changes target the top mechanical and 
electrical system mission degraders and are necessary to 
improve existing capabilities and to reduce system casualties. 
We expect to execute 25 to 30 percent of these funds this 
fiscal year, with another 50 percent executed in the first 
quarter of fiscal year 10.
    Mr. Chairman, there was no question that the funding 
provided through the Recovery Act will improve the Coast 
Guard's ability to execute its missions. Additionally, with an 
estimated 1,400 jobs created, this funding is expected to have 
a significant impact on local economies.
    I am grateful for your continued support of the United 
States Coast Guard and the opportunity to speak with you today. 
I am pleased to answer your questions.
    Thank you, sir.
    Mr. Oberstar. Mr. Wender tells me your name is properly 
pronounced Rajk.
    Mr. Rajk. Rajk, sir. If we were in Slovakia it would be 
pronounced Rajk.
    Mr. Oberstar. I thought it had to be a Slovak name, but 
there are some consonants missing from your name, from the 
spelling of it. It was Anglicized when they came through Ellis 
Island.
    Mr. Rajk. Yes, sir, 1911 through Ellis Island.
    Mr. Oberstar. I know. It happened to our family too, the 
Oberstars and the Posta Schlemcheks, they all got their names 
changed by those Irish immigration officers.
    That's true.
    Mr. Oberstar. All right. Ms. Siggerud, you are the clean-up 
batter here. We look forward to your testimony.
    Ms. Siggerud. Mr. Chairman and Members of the Committee, I 
am pleased to be here to discuss our work examining selected 
States' use of funds for highway infrastructure projects under 
the Recovery Act. As you know, the act is far-reaching and 
includes a number of transparency and oversight mechanisms.
    GAO's role, as established in the act--excuse me, I am 
sorry. GAO's role in establishing the act is to review use of 
funds by States and localities. We are doing so by following 
major Recovery Act programs in 16 States in the District of 
Columbia, as well as monitoring trends nationwide.
    The highway program is one of our major focuses. My 
statement today will draw from our July 8 update on the 
Recovery Act and will cover first how States have used the 
$26.7 billion apportioned to them in the Recovery Act for 
highway projects. Second, the steps they have taken to meet the 
act's requirements; and, third, GAO's other work on 
transportation under the Recovery Act.
    As of 2 weeks ago, $16.8 billion of apportioned funds for 
highways have been obligated for over 5,700 projects 
nationwide. This is 63 percent of apportioned funds.
    Page 3 of my statement shows the types of projects States 
have selected. Almost half of these funds are for pavement 
improvement projects, like reconstructing or rehabilitating 
deteriorated roads. State officials told us they selected these 
types of projects because they did not require extensive 
environmental clearances, could be quickly obligated in bid, 
could employ people quickly and could be completed within 3 
years.
    About 17 percent of Recovery Act funds were obligated for 
increasing capacity through pavement-widening projects, while 
12 percent is going for bridge projects. FHWA's reimbursements 
to States, which occur after contracts have been awarded and 
contractors paid, are proceeding at a slower rate. As of 2 
weeks ago, DOT had outlaid $401 million or 2.4 percent of 
obligations for highway projects.
    However, we noted a significant increase in outlays in the 
last month. In fact, outlays grew significantly faster than 
obligations over that time period. States have been getting 
good deals in bidding these projects. They told us that due to 
competition and other factors, the bid prices had been between 
5 to 30 percent below estimated costs.
    Turning now to the act's requirements, every State met the 
requirements that 50 percent of funds be obligated by June 30. 
We found more variation in how States were implementing the 
requirement to give priority to projects that can be completed 
within 3 years and that are located in economically distressed 
areas, as defined by the Public Works and Economic Development 
Act.
    While the State officials said that they considered project 
readiness, including the 3-year completion requirement, we 
found inconsistent approaches to giving priority to selecting 
projects in economically distressed areas and how they 
identified these areas.
    Because States had known for some time that the so-called 
ready-to-go-projects would be a priority, States had taken 
steps to identify projects months before the act. But the act 
added priorities for economically distressed areas, requiring 
States to apply a new criterion within a relatively short time. 
Any inconsistencies we saw included applying criteria not 
identified in the Public Works Act; for example, States using 
long standing allocation formulas they typically use for 
distributing Federal aid highway funds within the States.
    Several States also developed their own criteria, like 
foreclosure rates and percentage increases in unemployment. 
This variation results in part from unclear guidance from the 
Federal Highway Administration on how to apply this part of the 
act. Lack of coordination within the Department of Commerce, 
which defines economically distressed areas for its grant 
programs, was also a program.
    We recommended the DOT clarify its guidance, and the 
Department has committed to working with Commerce to develop 
new guidance. We review that and continue to follow this issue.
    Finally, while there were some initial bumps in the road, 
DOT has determined that all States but one met the requirement 
that the Governors certify they will maintain their level of 
effort. This means the States committed to maintaining their 
level of highway spending at the level planned on the date of 
enactment. However, given the significant fiscal distress in 
some States and the technical challenges in determining whether 
the States are actually maintaining their planned spending, we 
will also continue to follow this issue.
    Mr. Chairman, our future work in the States will add key 
transit capital programs for our September report. We will also 
look at obligations of highway funds at the local and 
metropolitan planning organization level and contracting 
practices in the States.
    We also recently issued a positive review of DOT's initial 
actions in implementing the Secretary's $1.5 billion 
discretionary grant program. We also provided observations and 
testimony on FRA's strategic plan for allocating high-speed 
rail funds, and have additional work planned in the rail area.
    We will, of course, also be happy to work with the 
Committee to select other areas for review.
    This concludes my statement. I am happy to answer any 
questions the Committee may have.
    Mr. Oberstar. Thank you, Ms. Siggerud.
    As always, GAO's work is splendid, it is precise, it is 
thought-provoking, and you have provided a better chart on 
utilization than DOT has done. And it is very instructive, 
because you break down, as we expected you would do, the 
obligation of funds on highway projects, pavement improvement, 
widening, new road structure, bridge improvement, replacement, 
new bridge construction and so on.
    It is very, very instructive for us to see how these 
dollars are used and where they are being allocated, and I will 
come back to you a little bit later.
    But I want to start with EPA, and I know each of our 
Subcommittee Chairs and Ranking Members and other Members of 
the Committee will have very specific questions on their 
respective areas of jurisdiction.
    Mr. Hooks, your testimony was considerably lacking in 
specifics about projects and projects underway and jobs 
created. EPA was slow out of the blocks because we heard that--
we heard that there are problems with the Buy American Act; 
that many communities in building interceptor sewer projects or 
pump stations--pumps aren't made in America. The act requires 
Buy American, and we all thought that was a good thing. But it 
would have been useful if EPA had said, oh, there is a problem 
here; some of the equipment to be purchased here isn't made in 
America. We could have crafted exemptions.
    So tell me--and I also heard from members of the Canadian 
Parliament who were concerned about their major producer pumps, 
and regularly sell them in the U.S. marketplace, but they were 
not allowed to do so under the Recovery Act.
    So what have you done to address that issue and how 
widespread is this Buy American Act as an impediment getting 
projects underway?
    Mr. Hooks. In some respects I think it is almost too early 
to tell. At this point in time, we have actually awarded ten 
waivers for the Buy American provisions associated with the 
act. And I think we are doing that fairly expeditiously.
    One of the things that I know that we are trying to do and 
that we are doing, is meeting quite extensively with the 
contractors that are involved with producing and constructing 
these projects within the form of Web sites, Webinars, what 
have you.
    Right now we are turning these waiver requests around in 2 
weeks, as we are learning more and we are able to modify and 
produce national waivers and also site-specific waivers as time 
goes on.
    To date we haven't denied any waivers. I think we are doing 
a good job in terms of educating the contracting community, and 
also we are learning as we go along as well. So at this point 
in time, we anticipate that there will be additional waivers 
from the Buy American provisions.
    Of course, our goal is for all of the projects to be bought 
in America. But, in some instances, we are finding that is not 
possible.
    Mr. Oberstar. As you proceed--and thank you for that 
response--but as you proceed and you encounter these issues and 
questions, please have your staff consult with our Committee 
staff on both sides of the aisle here so that we understand 
what is going on.
    But, you know, the front line of this program, as at the 
highway and the bridge program and the transit program, is at 
the States and MPO and transit agency level. In this case, the 
SRF, the State Revolving Loan Funds, I noted as I went through 
our State-by-State tabulation that, surprisingly, South 
Carolina doesn't have any funds allocated. Is that because they 
don't have an SRF?
    Let me ask, first, Mr. Brown. Are you aware of this; that 
the State of South Carolina does not have a State revolving 
loan fund program?
    Mr. Brown of South Carolina. Well, they do have a revolving 
fund program. I am not sure why they are not requesting those 
funds.
    Mr. Oberstar. Well, they stuck out like a sore thumb to me 
last night, as I read through the chart, that South Carolina 
has no funds allocated to it.
    Mr. Brown of South Carolina. I noticed that same thing, and 
I noticed that Mississippi doesn't have any either.
    Mr. Oberstar. Is that that they didn't report, Mr. Hooks, 
or what?
    Mr. Hooks. At this time there are six States that have not 
received their allocation. I would predict they are within one 
or 2 weeks of receiving their allocation. But you are right. At 
this point in time, South Carolina has not received their 
allocation.
    Mr. Oberstar. They have not received----
    Mr. Hooks. We have not obligated the money to South 
Carolina at this point; yes, sir.
    Mr. Oberstar. Is that because they did not request--or what 
is the reason for that?
    Mr. Hooks. Well, all of the States will submit intended use 
plans to the agency for us to review, where they are in that 
process. I believe they have actually submitted their use 
plans. We are in the process of approving it now.
    Mr. Oberstar. Mr. Brown, I will yield to you now at this 
time if you want to follow up on that matter.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman. I 
noted that we had some problems at the administrative level 
accepting some of these stimulus funds. These funds were 
include in that original 700 million, was it?
    Mr. Hooks. Actually, I am not sure what funds you are 
referring to.
    Mr. Brown of South Carolina. I know the Governor had 
problems accepting stimulus money. I am sure you must have been 
somewhat involved in that. So I guess what I am trying to find 
is the right question to ask you--why that South Carolina is 
not included, and what should I do in order to be able to 
implement the progress?
    Mr. Hooks. I am not sure if that contributed to part of the 
delay or not.
    I do know that for the six States that have not received 
their funding, we actually are personally visiting those States 
to offer any sort of technical assistance that we can. We have 
visited South Carolina and intend to expedite it as quickly as 
possible.
    Again, I would predict that probably within a week or 2 
weeks, those funds will be available.
    Mr. Brown of South Carolina. Okay. If you could keep me in 
the loop on that, I would appreciate it. Anything we might do 
from this level to make it work.
    Mr. Hooks. I appreciate that.
    Mr. Brown of South Carolina. I know we have funded this, 
Mr. Chairman.
    Mr. Oberstar. I am not taking away from your time, Mr. 
Brown. I am yielding you my time. I thought it was an 
appropriate moment to intercede.
    Mr. Brown of South Carolina. Thank you.
    Mr. Oberstar. You also report that State revolving loan 
funds are leveraging funds. I know in Minnesota I got a report 
that of the $123 million, the SRF had planned to use some State 
funds and local dollars and various programs to leverage that 
into $502 million. But they are woefully behind. I don't 
understand this. You have done your job. They have allocated 
their money. Why don't they have these out to contract? We have 
only eight projects on which work has begun.
    In fact, I asked the Underground Utility Contractors 
Association to give me a list of the sites. I expected 15 or 20 
that I could visit during August and personally observe a 
project. They had only four or five. You have eight listed 
here.
    Have you followed up with these States and prodded them and 
said, what's going on?
    Mr. Hooks. Yes. Again, like I said, we actually are 
visiting the States. We are concerned as well. We do know that 
everybody is working as expeditiously as possible. We have 
accelerated many of our activities, and we know that the States 
are accelerating many of their activities as well.
    One of the things that I think we had always predicted was 
starting in the months of July and August, particularly because 
of the construction season, we expected these numbers to ramp 
up significantly. We are starting to see that. In fact, the 
past 4 weeks the pace of outlays has actually increased 85 
percent. I suspect in August it will probably even double that, 
maybe even exponentially.
    I think just based on the bidding process, on the borrowing 
process and the State processes, which vary from State to 
State, it has taken this long to get to this point. Some States 
have been more aggressive in terms of their pace versus others, 
but we are trying to get everybody up as quickly as possible.
    Mr. Oberstar. I am not going to pursue through all of the 
witnesses--I just have to ask, Mr. Salt, the legislation 
prohibited the Corps from funding new starts. Is that a 
mistake?
    Mr. Salt. Sir, I would never say you made a mistake.
    Mr. Oberstar. We didn't make the mistake. It wasn't our 
job. It was the Appropriations Committee that said no new 
starts. We were all for new starts.
    Mr. Salt. Sir, sorry I can't tell if it was a mistake or 
not. I think, obviously, we would have had a different list of 
work.
    Mr. Oberstar. I probably could have worded it differently, 
or you can rephrase your answer. But what the question is 
really getting at: Don't you have a number of new-start 
projects that could have been, bang, underway, just like that?
    Mr. Salt. Yes, sir.
    Mr. Oberstar. All right. That is enough. I am sure in the 
Atlantic Intracoastal Waterway Mr. Brown has cited a number of 
projects.
    I will cease there and recognize the gentleman from 
Florida.
    Mr. Mica. Thank you. First let me turn to the GAO 
representative, Ms. Siggerud. You testified again about some of 
the difficulty that you all reviewed, and uncovered in trying 
to get some of this money out. You talked about the--I thought 
you said Federal Highway Administration and DOT failed to 
clarify some of the terms, and then you also said that the 
Department of Commerce also had difficulty, I guess, in 
defining the economically depressed areas. Can you elaborate on 
that?
    Ms. Siggerud. Yes. The act, the Recovery Act did require 
that State detainees give priority to projects that had two 
characteristics: They could be completed within 3 years and 
were in an economically distressed area. And that definition of 
economically distressed area is within the Public Works Act 
that uses a definition that Department of Commerce uses to 
provide grants.
    The initial guidance from the Federal Highway 
Administration was much vaguer in the way that it described 
what an economically distressed area was, and provided a fair 
amount of, shall we say, flexibility to the States, rather than 
referring specifically to the set of criteria laid out in the 
Public Works Act and as administered by the Department of 
Commerce. We are seeing progress as the Department of Commerce 
and Department of Transportation now work together to arrive on 
a set of criteria that can be used.
    Mr. Mica. They haven't agreed on the criteria yet, or there 
is confusion at least.
    Ms. Siggerud. Yes.
    Mr. Mica. And is it true that 70 percent of the 17 billion 
obligated so far is going to go primarily for repaving or some 
widening? Is that what you found in your study?
    Ms. Siggerud. What we found is that 49 percent is going for 
paving and 17 percent for widening, the capacity addition-type 
projects.
    Mr. Mica. So we add them up?
    Ms. Siggerud. Right.
    Mr. Mica. And, again, I use the figure of 6 percent for 
new--let me see here.
    Ms. Siggerud. There is 6 percent for new road construction, 
yes.
    Mr. Mica. For new road construction, new road and bridge 
construction. So those would be bigger, longer-term projects.
    Ms. Siggerud. Right.
    Mr. Mica. So a very small amount.
    Ms. Siggerud. Mr. Mica, we did find in the State of 
Florida, the discussion earlier that the State of Florida 
planned to spend a significantly higher portion on new bridges 
and on new highways than other States.
    Mr. Mica. I don't know if you have seen this, but what we 
did was take the amount of money that was spent as of the 
27th--I guess it is 9/16, but it is still under a billion--47, 
$48 billion total. And then we took the States with the highest 
unemployment and the figures show just a few million dollars in 
some of the States with very high unemployment.
    Rhode Island is interesting, too. They are supposed to have 
a bridge project--I think it was touted--some of their bridge 
deficiencies, and it looks like most of the money didn't--well, 
the little bit that has been spent, nothing has been going for 
those major bridge or deficient obsolete bridge projects.
    Are you aware that this--what is happening here with money 
not going to places with high unemployment?
    Ms. Siggerud. Yes. Let me mention. Excuse me, I am sorry, I 
am getting over a cold. Let me mention a couple of things. The 
way the Recovery Act set up the highway portion of the act was 
using an existing formula to distribute these funds. It is not 
based necessarily on economic----
    Mr. Mica. There is a problem of clarification of that. And 
then you said there are problems on the Department of Commerce 
even defining the depressed area.
    Ms. Siggerud. Right.
    Mr. Mica. Again, we are trying to get to the root of what 
the problem is, as opposed to why we don't have major amounts 
of money going on significant projects that will be longer 
term, and you have done a good job in compiling some of that 
information for us.
    Let me turn, since I don't have too much time, to the FEMA 
representative. Mr. Ashley, is it? You have 6,000 requests. It 
seems to take sort of an inordinate amount of time. You said 
that you won't get those--the money out until when--or the 
contracts out until the end of the year?
    Mr. Ashley. 30 September.
    Mr. Mica. How many do you have out right now?
    Mr. Ashley. None, absolutely zero. The application period 
just recently closed and they are currently in the peer-review 
process.
    Mr. Mica. Are you going to do it incrementally?
    Mr. Ashley. No, sir. Unlike in the AFG program, we are 
going to roll these out to get them out faster at the time they 
are reviewed.
    Mr. Mica. It won't be until the end. Maybe we could loan 
you some staff during the recess to speed up the process on 
both sides of the aisle.
    Mr. Ashley. You have to remember, sir, that this is a 
completely new program, zero authorization language for this 
program, and the development and the staff----
    Mr. Mica. I know. But, again, our job and our intent was to 
get this money out in a hurry.
    GSA, Mr. Costa. Mr. Costa, you have got--you outlined 5.5 
billion for green Federal buildings and 4.5 for converting 
green--buildings to green. Do you know how much money has gone 
out so far in that effort?
    Mr. Costa. Of the $5.5 billion we have obligated, 1.1 
billion as of this time.
    Mr. Mica. And actually how much has gone out?
    Mr. Costa. The contracts have been awarded.
    Mr. Mica. Yes. I have $34 million; is that correct?
    Mr. Costa. I have no idea what that number refers to, to be 
honest.
    Mr. Mica. Well, I can't imagine you coming to a hearing 
without knowing the amount of money that has been expended so 
far. Can you get that to the Committee?
    Mr. Costa. Yes, sure can.
    Mr. Mica. But the information I have is 34 million--it is 
from your Web site.
    And then I also notice--and we will make this part of the 
record--that you have a total of $11.7 billion in unobligated 
GSA funds as of 7/28/09. I will put this in the record. And you 
have outlined ways of which you are going to dispose of a fair 
portion of that.
    When will you be able to tell the Committee a good schedule 
on which you will be able to deal with all of the unobligated 
funds?
    Mr. Costa. We can follow up with a detailed schedule. Much 
of those, for instance----
    Mr. Mica. But 34 million out of 4.5 billion doesn't sound 
like you are really greening. Sounds like a little bit of 
lagging behind, even in that program.
    Mr. Costa. Well, Congressman, again, I can't really--the 
$34 million----
    Mr. Mica. I know. But you are the contracting agency. This 
isn't like maybe FEMA has new responsibilities. You guys do 
this all the time, don't you, or the Federal Government?
    Mr. Costa. Congressman, the way--I am sure the $34 million 
must refer to outlays, actual expenditures.
    Mr. Mica. Yes.
    Mr. Costa. And just like any other project, even a home 
renovation, it is not a good idea to pay your contractor before 
they do the work.
    Mr. Mica. Before the job is done. But so far----
    Mr. Oberstar. They make progress payments.
    Mr. Costa. Yes, they do.
    Mr. Mica. But 34 million out of 4.5 billion, that is like 
the highway money, too. They have obligated now 59 percent. But 
we have actually spent 1 billion today.
    So, you know, the money has to be spent to pay people to 
work, to get them employed, to get them to jobs. And, 
unfortunately, it appears in a couple of areas we are falling 
behind. But we know you can do better, and maybe we can send 
you some Majority or Minority staff during the recess to help 
you along, or at least to nudge you along. Thank you.
    Mr. Oberstar. We will be continuing this review of that. 
That is the purpose of this--to this review--is to understand 
how projects are moving, and perhaps why they are not.
    Now the Chair of the Subcommittee, Ms. Norton.
    Mr. Mica. Before we go to Ms. Norton, just one second.
    Mr. Oberstar. I am happy to.
    Mr. Mica. I do want for the record and request in writing 
that we get the rest of the plan for utilization of those--the 
total amount that I gave, $11.7 billion--to the Committee as 
part of the record. I would ask that. Thank you.
    Mr. Oberstar. Without objection. That document will be made 
part of the record, and we look forward to GSA explaining the 
unobligated balance issue.
    Mr. Costa. We will be happy to, thank you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Oberstar. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. Indeed, the dialogue 
you have just been having about expenditures versus obligation 
is an important one to have, since the point here was to get 
the money into the economy. Now, once something is obligated, 
the money can be spent.
    You have testified that you expect in the first 8 months 70 
percent will be, quote, flowing into the economy. Now, are you 
referring to funds going to people who are working? Are you 
simply referring to the amount of obligation in funds GSA shall 
have been done? Because this is an important difference here?
    Mr. Costa. Yes. No question that 70 percent refers to 
obligations, not outlays.
    Ms. Norton. To what extent can you hasten outlays? You are 
absolutely right, you are not going to pay somebody before the 
work is done. But the Ranking Member is right. You know, if 
somebody is doing some work, he has to be paid on a--what 
basis, what basis are people paid?
    Mr. Costa. Basically when we award a contract, a 
construction contract, the contractor and GSA negotiate a 
schedule and payments are based on that schedule andcomplete--
--
    Ms. Norton. Well, you have got a billion dollars obligated, 
right?
    Mr. Costa. Yes.
    Ms. Norton. And so how do you explain the difference, what 
the Ranking Member pointed out, between what appears to show 
up, $34 million, and all of that money having been obligated?
    Mr. Costa. Well, the majority of our billion dollars of 
obligations occurred over the last 3 weeks. And so what happens 
very quickly is that contractors start to ramp up, design work 
occurs, hiring occurs. Hiring really can't occur before a 
contract is awarded.
    Ms. Norton. I understand that is an important difference. 
Would you get the Committee and the Subcommittee on a monthly 
basis the obligation and the expenditure amounts so that we can 
understand how much money is flowing into the economy?
    Because you do appear to be doing a good job in getting 
these funds obligated, and I do know that that is difficult, 
because of the necessary--necessary competition that we must do 
in all Federal contracts. As you could tell by my opening 
remarks, I am concerned about the apprentice and pre-
apprenticeship program. Today the RFP is out; you expect it to 
be awarded in September.
    Given what you know and the preparations you were making 
all along, the fact that we are just getting an RFP out is 
extremely disappointing to me. I understand the preliminary 
work that has been done, but in light of that work, I would 
like to focus you on the fact that before you have done--before 
you even did an RFP, you had done a lot of preliminary work on 
where the unemployment is, on the kinds of organizations that 
are available.
    In light of that work, could we not shorten the time to 
award a contract so that we don't blow the entire building 
season? Because the way it is--your schedule has it now-- is 
you don't even award a contract until September. And it looks 
like we are about to wave goodbye to much of the building 
season, at least in parts of the country.
    Since you have done so much preliminary work, done so much 
preliminary screening, could you not shorten the amount of time 
to review the folks who have responded to your RFP so that you, 
perhaps, could get it out in the middle of August, say, instead 
of waiting until September or some kind of bureaucratic time 
frame that you usually set?
    Mr. Costa. We will do our best to quicken the pace.
    Ms. Norton. I would very much appreciate that quickening 
the pace, if at all possible, to the middle of August.
    I have to do double duty here.
    I do want to ask a question about St. Elizabeth's. Here we 
have half a billion dollars that you have for the Department of 
Homeland Security headquarters. You also have some preliminary 
money that we had also gotten for you.
    The reason I was able to get the remainder of the money 
included in the stimulus package is jobs. Pure and simple jobs. 
This is your biggest project. It is the biggest project you 
have ever done. It is a compound. So you could have a real 
effect on the economy, certainly of this entire region.
    There are two parts of this project. One is building a 
building, and that building is the first building----
    Mr. Costa. Yes, the Coast Guard building.
    Ms. Norton. The Coast Guard building. But the other is 
reusing--rehabilitation of historic sites, including the 
building that the Secretary will be in.
    Is there any reason, given the focus on the economy and on 
getting jobs, why GSA could not be doing the rehab work and the 
construction work at the same time, getting that money right 
out into the economy with jobs and all that implies?
    Mr. Costa. We expect to award our first contract----
    Ms. Norton. Now, that contract is for buildings. Please, I 
have limited time. I am talking about two different kinds of 
work, both involving infrastructure, but very different work. 
Construction, that is what you have been focused on. I am 
putting another question to you.
    Is there any reason why you couldn't have, given the focus 
on work, on jobs, and the fact that this is a huge project, 
that you could not begin with RFPs and all that goes with it, 
the rehabilitation work of the reused buildings, buildings to 
be reused on the old St. Elizabeth's Campus, simultaneously 
with building the first new building?
    Mr. Costa. The $350 million will be awarded in August.
    Ms. Norton. For?
    Mr. Costa. For the U.S. Coast Guard. And then the next 
tranche of money, which is in the stimulus package for $450 
million, we have actually moved up the award from the beginning 
of fiscal year 2011 to fiscal year 2010. That package includes 
construction, infrastructure, and renovation of----
    Ms. Norton. When will that be awarded? Excuse me.
    Mr. Costa. By the end of fiscal year 2010, which is 
actually sooner than we expected 3 months ago.
    Ms. Norton. Well, why could it not be awarded sooner?
    Mr. Costa. Just because we have to complete design to 
actually provide the construction documents so they can go out 
to bid. So that work is ongoing.
    Ms. Norton. I think that I would like to have a discussion 
with staff on simultaneously pursuing very different kinds of 
work; that if we hastened the work and didn't see them as two 
separate kinds of work, almost sequencing them, could get a 
fair amount of money into the economy.
    Mr. Chairman, I didn't get to ask--you are having me do 
double duty here--FEMA is here.
    Mr. Oberstar. Yes, but I have to go to other Members. They 
will stay. We are not going to let them go away.
    Ms. Norton. I will wait until the next round.
    Mr. Oberstar. Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Mr. Chairman. I thank the panel 
for being here today.
    Earlier this year the Coast Guard informed the Committee--
and Mr. Rajk, this is basically for you--the Coast Guard 
informed the Committee that it had a shore-side infrastructure 
backlog of about $1.1 billion. Mr. Cummings has talk about 
this. Mr. Oberstar, I know you are keenly aware of it.
    To say I was very disappointed that the stimulus bill only 
included 88 million is a tremendous understatement. It is only 
about 7 percent of what is needed to address the backlog. And 
then to add to this high level of disappointment, the 
administration followed up with a one-time emergency 
appropriation, with the request of no funding for the 
construction. And this is very troubling.
    So my question is: Is the Coast Guard simply using the 
stimulus money to meet recurring annual needs? And if this is 
what they are doing, how is that stimulative?
    Mr. Rajk. Sir, thank you for your question. Essentially 
what we have looked at over the last several years, sir, is a 
capacity provided through the appropriations process to address 
our shore infrastructure. The Congress has been very supportive 
of that over the last 2 fiscal years in providing between 450- 
and $470 million for some of our highest priority shore 
infrastructure needs.
    This includes the funding that was provided in fiscal years 
regular appropriations 2009 and 2010--excuse me, 2008 and 
2009--as well as the almost $300 million that was applied to 
the shore infrastructure in the hurricane supplemental at the 
end of fiscal year 2008, sir.
    So the combination of that with the stimulus money, as we 
are trying to address those that appeared in the highest 
priority list or the highest portion of that list that we 
provided to the Congress previously.
    Mr. LoBiondo. Well, how is the Coast Guard going to manage 
the over $1 billion backlog, and isn't this going to affect 
mission readiness and performance?
    Mr. Rajk. Sir, I would expect in future years the Coast 
Guard would address additional funding that would be required 
to address most of those needs, in the order of priority, with 
meeting the highest needs, sir.
    Mr. LoBiondo. Well, through you, Mr. Chairman, Mr. 
Oberstar, I just can't begin to find the words.
    We always talk about the job that the Coast Guard does, 
and, once again, they are underrecognized, underappreciated and 
now tremendously underfunded.
    And I know, Mr. Chairman, you have called the shots as you 
see them--the good, the bad and the ugly--but I think we are 
missing--I think the administration missed a real opportunity 
here. We could have made a much needed investment into the 
Coast Guard.
    We keep talking about how much more we are asking them to 
do and how much we are depending on them.
    And I hope, Mr. Chairman, that through your influence and 
that of Mr. Cummings and this Committee and our Subcommittee, 
that we will find a way to remedy this tragedy that is once 
again happening to the Coast Guard right in front of our eyes.
    And just finally, Mr. Rajk, for you, in your testimony you 
said that there are seven shore-side projects that are being 
funded with the 88 million. Can you tell the Committee how much 
funding each project will receive?
    Mr. Rajk. Yes, sir. I think it is in my written statement 
that was submitted for the record, sir.
    Mr. LoBiondo. Okay. I thank you.
    Again, Mr. Oberstar, we have talked about this on many 
occasions, and, with Mr. Cummings, I think we have got a very 
bipartisan effort on behalf of the Coast Guard.
    And as we go through these tremendous trying times with 
homeland security challenges and maritime antiterrorism 
initiatives, I think that we have got to find a way to raise a 
level of awareness for the Coast Guard and ensure that they 
have at least minimum funding necessary. And 88 million out of 
a $1.1 billion backlog, in my book, doesn't even come close. 
Thank you.
    Mr. Oberstar. Well, I concur with the gentleman, and when 
our Committee reported or contributed our portion to the 
Recovery Act--of course, this was done as an appropriation 
bill--we had over $8 billion for the Coast Guard. That got cut 
back before it went to the floor, but then it got cut back even 
more in conference.
    We anticipated funding. We envisioned funding for Coast 
Guard assets--cutters, and for the new ice breaker, a second 
ice breaker for the Great Lakes to facilitate coal and iron ore 
shipments and other agricultural products that shipped through 
the St. Lawrence Seaway but need the Great Lakes to get there.
    All that was cut back--and I have to be candid about it, 
with the participation of the White House--it was shortsighted, 
and that is why we are having these hearings.
    So the good, the bad and the ugly.
    Mr. LoBiondo. The good, the bad and the ugly. I appreciate 
that. We went through this with the previous administration, 
with the Bush administration. Much to my dismay we got rolled--
our Committee got rolled. Appropriators and the White House 
went out on these things.
    Mr. Chairman I have tremendous confidence in your ability 
to raise the level of awareness and be effective, along with 
other Members of the Committee, to make sure we don't get 
rolled again. Not us being rolled, but the Coast Guard being 
shortchanged.
    These men and women who are putting their lives on the 
line, they don't have these shore-side projects. If they don't 
have the money necessary, we are doing a terrible disservice to 
their service to our Nation, what they are giving back to this 
country, and we are doing a terrible disservice to the mission 
of the Coast Guard.
    And I thank you very much for the opportunity.
    Mr. Oberstar. Thank you for your continued vigilance and 
passion for--as Mr. Cummings--for this very, very important 
agency of government.
    Mr. Oberstar. Ms. Brown.
    Ms. Corrine Brown of Florida. Thank you, Mr. Chairman.
    Many Members think when we pass a bill, that it is the end. 
But I know, having been here for 17 years, it is the beginning. 
So I want to thank you, Mr. Oberstar, for having these hearings 
so we can do our job as far as accountability and oversight, 
and find out where we are.
    The Wall Street Journal recently did a study and said that 
only 20 percent of the dollars was out and that Florida ranked 
dead last with the amount of funds.
    I want to know why that is the case, and is it something 
that the State of Florida--did we not apply for a waiver?
    What is the problem in getting the money out? Twenty 
percent of the dollars that we have put in the stimulus 
package, and Florida dead last.
    Everybody doesn't have to speak at once.
    Ms. Siggerud. Ms. Brown, if I may.
    Ms. Corrine Brown of Florida. Yes, ma'am.
    Ms. Siggerud. If you are referring to the highway projects, 
we looked at a number of States across the country, including 
the State of Florida, in our work.
    And the State of Florida does stand out somewhat from other 
States in terms of choosing projects that are largely new 
construction, both on the highway side and on the bridge side 
of the work. These are projects that are more complex and 
appear to be taking longer to bid and to get out to contract 
than some of the other States that we have reviewed.
    Mr. Oberstar. The gentlewoman wasn't here at the outset, 
but I pointed out the States who were doing the best and those 
that were doing the worst. And Wyoming was doing the best, and 
Florida was 49th or 50th in getting their recovery funds under 
contract. Now, this is a partial explanation.
    But Mr. Mica and I are going to follow up on this hearing. 
And before our next hearing in September, we are going to write 
to those lagging States and DOTs and find out why you are not 
getting the projects out.
    Ms. Corrine Brown of Florida. Well, Mr. Chairman, you spoke 
to the Secretary of Transportation yesterday.
    Mr. Oberstar. I did.
    Ms. Corrine Brown of Florida. So why don't we invite her to 
come and give us an update at the next hearing?
    Mr. Oberstar. This hearing was to be on the other Federal 
agencies, and the next hearing will include those. So during 
August we will write to all these lagging indicator States and 
put them on notice and ask them for information and invite them 
to our next hearing, yes.
    Ms. Corrine Brown of Florida. Thank you. Well, but water. 
Can you speak to water? We need it.
    Mr. Hooks. Well, I would agree with you. In fact, the 
difference between obligations and outlays is tremendous. I 
don't know what the specifics are for your particular State. 
The reporting requirements don't start until October, and then 
we will have that data.
    But, you are right. The delta between obligation and 
outlays is tremendous.
    I think of the things--and when I first started this 
process, I actually kind of do this in two chunks. You know, I 
thought we needed--we, as Federal, speak to EPA. EPA needed to 
accelerate what we needed to do to make the money available to 
the States, obligate the fund. And then I thought we were 
really going to move into kind of a management and oversight 
mode.
    What I am realizing is that we have basically had to create 
another section of work for EPA, and that is to help the States 
get this money out. And that is what we are kind of readjusting 
ourselves to do now by either visiting the States, making our 
contract dollars available to the States, to a system with 
their solicitation and bids, to help them with difficulties in 
the Buy American provisions, doing whatever we can to 
facilitate the States increasing their outlays.
    You know, I think it is important to also bear in mind that 
the work actually starts before outlays actually start to be 
paid out. So there is a little bit of a small delta between how 
much work is actually taking place versus the outlays that you 
will see in some of the charts.
    But I agree with you, the overall work between delta and 
outlays is so large, there is a lot of work that has yet to be 
done.
    Ms. Corrine Brown of Florida. My last question: Have you 
found that the States are trying to use these dollars to 
balance the budget? I mean, we are all in a crunch. But if we 
bit the bullet to raise this revenue to stimulate the economy, 
are the States doing what we are asking them to do? Are they 
trying to circumvent what we are trying to do; in other words, 
take our dollars and use theirs to balance the budget?
    Mr. Hooks. Sure. To date we have not seen any evidence of 
that taking place.
    Ms. Siggerud. Congresswoman Brown, on the highway side, GAO 
is looking at this maintenance-of-effort issue. As you know, it 
was a requirement in the act. Every State, including the State 
of Florida, has certified that it will not supplant Federal 
dollars with--State dollars with Federal dollars. But the 
actual following of those dollars is a more complex challenge 
that we will be taking on and reviewing the Department of 
Transportation's work as well.
    Ms. Corrine Brown of Florida. We will count on you doing 
it. Thank you, Mr. Chairman.
    Mr. Oberstar. Thank you, Ms. Brown, and we will be 
following up on those matters, as I previously announced.
    Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Mr. Chairman.
    Mr. Hooks, back to the original question that we were 
talking about, I noticed that maybe we have some 40 million 
that has been assigned to South Carolina but hasn't been 
actually dispatched yet. Does anybody in your group that is 
with you, could they give me an answer, why that has not taken 
place?
    Mr. Hooks. Perhaps. I am not sure. It would probably be--
some of those questions can be fairly complex in trying to 
determine where exactly in the many steps that are involved in 
getting money out the door.
    I would be happy to get back and report back to you, to 
your office.
    Mr. Brown of South Carolina. Okay. We have gotten a report 
back that you all were waiting on having a press conference 
before the money was distributed. Is that normal procedure?
    Mr. Hooks. I think there have been many press conferences 
involved in announcing various releases of money for a variety 
of programs that EPA is responsible for. Typically those time 
frames are fairly short; that once the money has been approved, 
the award announcement follows almost the very next day or 
within a couple of days.
    Mr. Brown of South Carolina. Okay. If you really see a 
problem along the line, I appreciate you contacting me and my 
office so we could try to expedite it.
    Mr. Hooks. I appreciate that.
    Mr. Brown of South Carolina. Thank you.
    Mr. Salt, I noted the Chairman asked a question about new 
starts. Is that a policy that you are following with the 
stimulus funds, too?
    Mr. Salt. I think the question was how big an impact was 
the part of the legislation that prohibited new starts?
    Before the act was finally passed, we had started putting 
lists together of projects that would qualify, and a number of 
those were new starts. When that part of the legislation was 
included, those projects dropped out.
    And so I think--was it a mistake? Well, it is a different 
list. We had our criteria for ranking and selecting projects, 
and when those projects fell out, we just went down to the next 
projects in our criteria of ranking.
    Mr. Brown of South Carolina. And so there are no new starts 
in the stimulus funding either, then?
    Mr. Salt. That is correct, sir. But that is by statute.
    Mr. Brown of South Carolina. So we need to change a 
statute?
    Mr. Salt. Well, yes, sir. Were the statute to be changed, 
then we would have had other projects on the list. All but just 
a small amount of the funding has been allocated to projects. I 
think, if you were to change the law now, that would mean 
taking something off the list to put something else back on.
    Mr. Brown of South Carolina. I know Mr. Hooks said they 
were able to override the policy based on Made in America. But 
you don't have that option in new starts?
    Mr. Salt. That is correct, sir. In fact, we inadvertently 
included projects within programs that had been funded. But the 
determination was that the specific wording in the act talked 
about programs, projects, or activities. And we had to withdraw 
certain projects from our original allocations because of that.
    Mr. Brown of South Carolina. Okay. Thank you.
    Ms. Siggerud, we talked about, I guess, the slowness of the 
process moving. And my question is: How many States are at risk 
of losing their funds by not meeting the deadline?
    Ms. Siggerud. Well, there are a number of different 
deadlines. All States met the first deadline to obligate 50 
percent of funds by June 30. There is another deadline in March 
of next year when 100 percent of funds need to be obligated, 
and then, finally, another deadline 2 years later, by which 
time the funds must actually have been outlaid.
    So at this point, it is early to say whether any States are 
in particular jeopardy. The first deadline has been met by all 
States.
    Mr. Brown of South Carolina. Okay. So I guess the proposal 
would--then it could be 2 years before this money has to be 
spent?
    Ms. Siggerud. Yes, because of the nature of the Federal Aid 
Highway Program. And that is the model being used here in the 
Recovery Act. It is a reimbursable program. So once projects 
are identified, the contracts do need to be bid and let. And 
then as contractors submit vouchers to the State, the State can 
be reimbursed by the Federal Government for those projects. So 
it is something that plays out over time, even if you do 
identify the projects early on.
    Mr. Brown of South Carolina. Thank you very much. Thank 
you, Mr. Chairman. I appreciate you holding this hearing.
    Mr. Oberstar. I thank the gentleman for that question. It 
is a very important one, and I think the outcome would have 
been considerably different if our Committee language had 
prevailed.
    What we proposed, what we submitted to the Recovery Act 
team--which consisted of the Appropriations Committee, Ways and 
Means Committee and the Obama team--was 90 days. Under 
contract, no obligation, or lose the funds.
    We met with great resistance from the Senate and from the 
White House team who said, oh, that is too hard on the States.
    I said, no; ASHTO submitted to us in December and again in 
early January and testified right here in this Committee room 
that they had 5,800-and-some projects that were designed, 
engineered, right away acquired, EIS completed, ready to go to 
bid, and we will hold them to that.
    But putting funds obligated language into the bill gave an 
escape hatch for the States. It is easier to obligate than it 
is to put it under contract. Keeping our original language 
would put a blow-torch on the behind of these State DOTs, and 
they would have had projects under contract sooner.
    Mr. Brown of South Carolina. And get people back to work.
    Mr. Oberstar. It would have been a lot better.
    But we were undercut in this process by Senators and others 
who were claiming, oh my goodness, this won't work; be too 
burdensome on the States.
    Baloney. They all testified right here in this Committee 
room saying we can do this. And then after they thought about 
it for a while they said, oh, maybe we can't.
    Well, we should have kept our original language.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Rajk, of the $98 million provided to the Coast Guard 
RACI account, $88 million to be directed to the rehabilitation 
of shore facilities of the Coast Guard, the Committee has 
received extensive testimony regarding the backlog. And I think 
Mr. LoBiondo--who, by the way, I agree with every syllable that 
he said.
    But I am particularly concerned about housing. As I travel 
throughout the country speaking to Coast Guard personnel, one 
of the biggest complaints is housing.
    And I have told them that as a Chairman, I am their number 
one constructive critic, but I am also their number one 
advocate and cheerleader. And certainly if we don't, you know, 
have housing for our people, it is kind of hard for them to be 
at their very, very best.
    And that said, I understand that only one contract for 
sure, for shore facility project, the $7 million project for 
the Cordova building project in Alaska, has been executed to 
date.
    And I further understand that this was an option on an 
existing contract; is that correct?
    Mr. Rajk. Yes, sir; that is correct.
    Mr. Cummings. And so what did that mean? In other words, it 
was already--I mean, that was just ready to go, and what does 
that entail?
    Mr. Rajk. Yes, sir. There was a four-phase project for the 
housing crew and family of the Coast Guard Cutter Sycamore in 
Cordova. This was phase 4, which was actually completed; four 
structures or duplexes for eight housing units, for a total of 
26 family housing units at that location, sir.
    Mr. Cummings. And that was--was that the only one?
    Mr. Rajk. I am sorry, sir?
    Mr. Cummings. Is that the only housing project?
    Mr. Rajk. Specifically in terms of the family housing, yes, 
sir. That is the only project. The way we looked at this, sir, 
if I might, is there are two other aspects of providing 
housing, safe and capable housing for our personnel, sir, is at 
Yorktown where we have a training center.
    What we have done there, sir, is the stimulus money will be 
used to upgrade and enhance the water system on Yorktown 
Training Center, and to include safety for the sprinkler 
system, fire and safety system.
    In addition, sir, we are constructing the first phase of a 
multiphase project, in Elizabeth City, North Carolina, for the 
Aviation Technician Training Center, to replace an aged 
building which in and of itself does not have fire suppression 
systems in it. So we are bringing that up to code and bringing 
it closer to the actual training center at that location, as 
well as moving it away from the runway at the airfield there.
    Mr. Cummings. So with regard to the treatment--our bridge 
program--it is my understanding your testimony indicates that 
$142 million provided for the program through the Recovery Act 
is being combined with $120 million, is that correct--from 
earlier funding--is that correct?
    Mr. Rajk. Yes, $120.22 million previously appropriated.
    Mr. Cummings. And that all of the bridge projects are 
expected to begin construction this year; is that right?
    Mr. Rajk. Yes, sir; that is right.
    Mr. Cummings. Now it is also my understanding that no 
disadvantaged business requirements attached to the funding 
distributed through Truman Hobbs; is that correct?
    Mr. Rajk. Yes, sir; again, unless the bridge owner is the 
contracting activity in this particular case, and then we would 
reimburse the bridge owner. So the extent to which they award 
the procurement processes in the State in which they will 
conduct the business may have requirements for that, sir. But 
that has been incorporated. But there is nothing in particular 
here.
    Mr. Cummings. Even if there is no specific requirements, is 
the Coast Guard making any effort to promote the use of 
disadvantaged enterprises on the bridge projects? And the 
reason why I ask you that is you probably know there was a 
scathing report about the Coast Guard with regard to the Office 
of Civil Rights which was actually--the Coast Guard actually 
requested a report.
    And the report came back and had some very not-so-kind 
things to say about the Coast Guard with regard to their Civil 
Rights Office.
    We have been able, with the help of our Chairman--and 
certainly are able to correct a lot of that. But I am just 
wondering, is there any encouragement that goes out to--
although there is not a requirement--to at least suggest that 
some of these people look at disadvantaged businesses and give 
them opportunities?
    Mr. Rajk. Sir, I don't know that there is anything 
specific. I think that on each of these four projects, the 
program office is in constant dialogue with the bridge owner, 
and will continue to do that. If that is an area that we should 
look at, we will go back and work through the program to do 
that, sir.
    Mr. Cummings. I see my time has run out. Thank you, Mr. 
Chairman.
    Mr. Oberstar. We will follow up on those issues. The 
gentleman is right on.
    And as I said, I designated Ms. Napolitano to coordinate 
the Minority issues involved here, and she and Mr. Clyburn's 
staff are working together on it. So we should have a meeting 
probably in September to look at this. But over the recess, 
staff will continue to follow up on these matters.
    Mr. Shuster.
    Mr. Shuster. Thank you, Mr. Chairman, for your patience and 
for having this hearing today. I have learned a lot.
    My question deals with Ms. Siggerud. Did I pronounce that 
correctly?
    Ms. Siggerud. Yes.
    Mr. Shuster. Thanks. I have been working on it for the last 
20 minutes.
    In your testimony, in your written statement, you talked 
about maintenance requirement efforts. And that is something I 
was very concerned about when the stimulus went out, and I 
thought the States were going to struggle, and what was going 
to happen was the Federal money would fill the hole in the 
State budgets. And it appears in your written statement that 
you address that a little bit, mentioning Illinois and 
Mississippi facing challenges.
    Mr. Shuster. So could you talk about that? How many States 
did you talk to? You just have the two here. I assume you 
talked to a lot more than that, and what was the across the 
board----
    Ms. Siggerud. We have an ongoing case study until September 
of next year of 16 States and the District of Columbia on 
highway and transit programs and a variety of other Recovery 
Act issues. In every State we did talk with the State DOT about 
what I call both the form and the substance of the maintenance 
of effort.
    The actual letter that was required to be given to the 
Department of Transportation, that took some time to work out 
in a number of States, as well as in the substance the extent 
to which the State is actually able to fulfill that 
requirement.
    Many States are in very significant fiscal distress. I 
think this is something that the Department and GAO needs to 
keep an eye on. We won't really know how this all turned out, 
though, for some time because it is a requirement that applies 
over a period of time.
    Mr. Shuster. Again, the numbers were 16 States.
    Ms. Siggerud. Sixteen States and the District of Columbia. 
And Pennsylvania is one of the States we are following.
    Mr. Shuster. And they have all--they are all obviously 
experiencing the same kind of----
    Ms. Siggerud. Yes, to different levels, depending on the 
budget situation in the States, but everyone is worried about 
it, yes.
    Mr. Shuster. And it always seems to me that, whether it is 
the Federal Government, the State government, or local 
government, transportation infrastructure always seems the 
easiest to cut; and when we cut it takes so long for us to 
catch--and that is what, of course, we are facing now with the 
Chairman trying to move a bill that the States are crying out 
for, that we leave the funding out there. So, again, I was 
concerned that would happen; and it appears that it is.
    A second question, directed to Mr. Costa and Mr. Salt. A 
lot of this money--very small amounts of this money has not--or 
has gone out, and there is huge pots of money that we don't 
seem to be moving that quickly on. It seems to me that in the 
situation that we face we should have looked to Minnesota and 
what they did on the I-35 bridge and the speed with which the 
money went out. And I think a big component of that, and I may 
be wrong, but was design-build. And how much are we doing that 
at the GSA?
    And I don't think we are doing much. I don't know if you 
are doing anything on the design-build at the Corps of 
Engineers. And it seems to me with stimulus money this is the 
time to employ that strategy.
    So can you talk about how much design-build you have put 
out there? Because my understanding is it saves maybe 20 to 30 
percent of the time that it takes when you go through the 
normal process.
    So either of you want to take that first? What are we doing 
on design-build?
    Mr. Costa. Traditionally, GSA had not used design-build 
extensively, but with Recovery Act projects we actually are--a 
majority of our projects will be design-build contracts.
    Mr. Shuster. What kind of percentage are you talking about?
    Mr. Costa. I was just searching through. I can provide 
that.
    Mr. Shuster. Is that something you can get?
    Mr. Costa. Yes.
    Mr. Shuster. It would seem to me this is a situation where 
we need to employ this strategy to get the money out there, so 
I would be real curious to see what you are doing on that at 
GSA.
    Mr. Salt. Sir, as we did the project lists and started 
getting the money, we had more projects ready to go than we had 
dollars, and so part of what we are seeing right now is just, 
particularly in the O&M, as soon as those projects are ready we 
are taxiing those out and it is happening.
    On the construction side, there are other factors that 
affect a schedule for a construction project. But in our 
criteria I think the Corps does design-build. As you say, that 
is an effective technique.
    In the case of the stimulus, we were focusing on projects 
that had designs completed or that were nearly complete so that 
we could just go ahead and proceed with that.
    I don't know the direct answer to your question. I don't 
know how many design-builds were built into our Recovery Act 
program.
    Mr. Shuster. My understanding is that the Corps has 
typically not utilized a design-build that frequently, and I 
would like to see what you are doing on design-build. Because 
as we come out of the economic downturn I believe that is 
something that the Corps ought to be looking at. Because I have 
talked to many folks in Pennsylvania that say that is something 
they haven't seen the Corps use, so I would encourage you----
    First of all, if you could report back to me what you are 
doing on that, both of you, and as we go down the road look to 
that design-build technique.
    I see my time is expired. Thank you, Mr. Chairman.
    Mr. Oberstar. The gentleman raised a very important issue 
here. And GSA, I noted in the details of testimony, are moving 
to a design-build approach on a number of these larger projects 
in particular.
    The Corps of Engineers generally has not used this 
practice. Because of the nature of the Corps work, they are the 
design people, and they have the engineering staff that puts 
the projects together, lays out the details of how they are to 
be undertaken in, say, building a lock or doing a lock pool 
construction or harbor maintenance project and then they put it 
out to bid.
    We will have to explore that in a future hearing with a lot 
of resources of the Subcommittee on the extent to which design-
build might work. You raised a very important issue and a very 
interesting one.
    Mr. Shuster. Thank you.
    Mr. Oberstar. Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman.
    I have been visiting a lot of projects throughout my 
district that is using our funds, and I am sure my colleagues 
are doing likewise. It is a good way for us to find out what is 
happening on the ground, so to speak; and I am going to 
describe a situation which I am sure other States face.
    This has to do with the Army Corps having selected in my 
district two harbor dredging projects for our funding use. 
Shortly thereafter, an hour was passed before we passed the 
Omnibus Appropriations Act. So when Congress passed the Omnibus 
Appropriations Act I am told by the Honolulu District of the 
Army Corps that appropriated funds must be used first. 
Therefore, we will be having to turn back most of the RA funds 
for these projects. And we already have a lot of new start 
projects ready to go, ready to move to the construction phase.
    So, Mr. Chairman, I hope that there is something we can do 
to make sure that these RA funds that are coming to the various 
States actually are able to be used for that purpose; and if 
that means that we need to amend the law so that new starts can 
access these funds I think we need to do that.
    And, Mr. Salt, if you have some other suggestion or a way 
that we can make sure this happens I would be happy to hear it, 
although that is just part of my question. If you can keep your 
response short.
    Mr. Oberstar. If the gentlewoman would yield, I did raise 
this matter earlier with Mr. Salt. We did not have a limitation 
on the types of projects that the Corps could undertake when we 
contributed our portion, our Transportation and Infrastructure 
Committee portion, to the Recovery Act. But when it got into 
the appropriation process, in the hands of the White House and 
to the Senate, they put this limitation in its part of the law. 
So you are right. We would have to change that. We would have 
to change the law. And I think it was a mistake.
    Ms. Hirono. Yes. And it is really manifesting itself in a 
real way on the ground.
    In addition, on these two particular harbor projects sand 
is being dredged from those harbors and they could be cleaned 
and used to replenish eroded areas. However, I have been told 
that our funds from these projects cannot be used for this 
purpose because sand cleaning is not considered construction, 
even if the sand is as a result of the construction activity. 
So all these tons and tons of sand will have to go to a 
landfill, which is already a huge problem for us in Hawaii.
    So, Mr. Salt, is this a matter of interpretation or is this 
again a limitation that we have put into the use of our funds?
    Mr. Salt. Congresswoman, I don't think this is a Recovery 
Act issue. As I have gone around, I, too, have been concerned 
that we don't seem to think very completely about how we best 
use dredge material and particularly how we use it; if it is 
contaminated, obviously, we have to deal with that in a safe 
and appropriate way. But if it is available to put it on a 
beach, our cost-sharing protocols for doing that are sometimes 
disincentives for doing things that are the smartest answer for 
our people and for the public, for the Nation.
    I don't have an answer for that, other than it is an issue 
that we are trying to work through, not just with the Recovery 
Act but with the beneficial use of dredge material in general. 
I know the Committee has given us authority with respect to 
that, and I think we are trying to look hard at it. I agree 
with your point, that if we are not careful, we constrain 
yourself into answers that don't make a lot of sense. So in 
that sense I agree. I don't think it is a Recovery Act issue. I 
think it is a more general policy issue that we are working on.
    Ms. Hirono. And what is the time frame? Because this 
dredging activity is happening right now, and there is all 
these piles and piles of sand that we could use in a beneficial 
way. So could you just move rapidly and can my office talk with 
you so that we can resolve this in a sensible way?
    Mr. Salt. Yes ma'am. We will get back with you.
    Ms. Hirono. And apparently this is a situation that affects 
other districts.
    Mr. Salt. Yes.
    Ms. Hirono. Since I have a little bit more time, I commend 
you, Mr. Salt, for the fact that you are sending--a lot of your 
contracts are with small businesses. And I hope that the other 
testifiers are doing the same thing, especially GSA, with 
regard to the contracts that you are letting, that you are 
focusing on small businesses and encouraging the use of smaller 
contractors.
    Thank you, Mr. Chairman.
    Mr. Oberstar. I will look forward to your response.
    I think your comment is correct, Mr. Salt, that this is a 
broader issue than Recovery Act funds, and it is a question of 
basic underlying policy. And that is a matter that will be 
properly disposed of in our next Water Resources Development 
Act.
    Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    First of all, I would like to thank Mr. Ross Ashley from 
FEMA. I understand that he'll be leaving government service 
this fall, and I want to take this opportunity to thank him for 
his service.
    Mr. Ashley took over the Department of Homeland Security's 
grants department at a time when it was having a fair amount of 
problems. At the time, the grant dollars and guidance were 
coming out late; and the States and first responders were 
pretty unhappy about that. Mr. Ashley made a concerted effort 
to work closely with its stakeholders to improve its programs 
and release grant funding more quickly.
    Again, I just appreciate you for your hard work and for 
your service; and I and I know the rest of the Committee wishes 
you the best of luck in your future endeavor. So thank you very 
much.
    Mr. Ashley. Thank you, sir.
    Mr. Boozman. Mr. Salt, the American Recovery and 
Reinvestment Act provides more than $2 billion for operation 
and maintenance to the Army Corps of Engineers, the intention 
which was to adequately operate and maintain our water 
resources and provide jobs. However, in the tables that we were 
provided, a large portion of the funding will go to surveys and 
upgrading tide gauges, things of that nature. Can you explain 
how these activities help stimulate the economy and provide 
jobs?
    Mr. Salt. Well, I would say that all of the work that we 
are talking about in the Recovery Act is provided through 
contracts or contract instruments to the private sector to get 
the work done. So, in that sense, those kinds of operation and 
maintenance activities are work for people, not government 
employees but for people, private-sector folks, who do that 
work.
    I would say that by far the majority of the dollars that we 
are spending are going to the kinds of things you would expect, 
the larger kinds of things, dredging and maintenance of our 
facilities and those sorts of things. I would say there are 
items, as you described, but none of our work is done in-house 
in that sense.
    Mr. Boozman. Thank you.
    I guess you know again Water Resources, the entire 
Committee, I think all of our efforts are really trying to see 
how we can really get people-to-work work.
    Kind of a related thing, the Congress has not received an 
Army Corps of Engineers report in 3 years. Are stimulus funds 
being used to complete the chief's reports? How many chief 
reports should Congress expect by the end of 2009 and how many 
by the end of 2010?
    Mr. Salt. I can't speak for the Administration on that. My 
goal would be to have many.
    When I ask that question--and we have those conversations--
the comfortable answer is less than 10; the aggressive answer 
is up to 25 or so. And in that delta are projects that will 
fall out because they aren't ready.
    I think it is a priority at the Administration to engage in 
conversations with the Committee over the next year and to not 
sit on our hands and force the Committee to do all the lifting 
but rather to come forward with some ideas about how we would 
proceed and then to have a good effort between the Executive 
branch and the Congress about not only a new set of projects 
with a Chief's Report but also with a series of policy 
initiatives like the Chairman was talking about before, such as 
a beneficiary use of dredged material and things like that.
    I think there are a number of areas that we are discussing 
now, and it would be premature for me to get too far along that 
line other than to say it is an important priority for us.
    Mr. Boozman. What I would like to do is yield the remaining 
few seconds that I have to Mr. Shuster. He has a follow-up 
question.
    Mr. Shuster. Just a question.
    And the Chair made a point about the Corps set up to do 
much of the design. And I am not sure. So the question is, I 
thought the Corps was giving up or putting some of that design 
responsibility out there to the private sector. Is that--what 
percentage? I still think you do quite a bit of design, but I 
am not sure, actually.
    Mr. Salt. A lot. I am told more than half of our design 
work went out to the private sector.
    As the Chairman pointed out, there is not a big market for 
a number of the things the Corps does, such as, great big 
concrete structures; and so there are types of work that the 
private sector isn't really tuned to do.
    Mr. Shuster. So about 50 percent.
    Mr. Salt. About 50 percent.
    Mr. Shuster. I see I have exceeded Mr. Boozman's time, so I 
yield back.
    Mr. Oberstar. That is a very important point. I am glad you 
raised it. And thank you for your response, Mr. Salt.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    When I looked at the intentions of the American Recovery 
and Reinvestment Act, if we looked at the objectives which 
are--right now I am looking at Mr. Ashley's testimony on page 
4. The Recovery Act was signed into law on February 17th in 
2009 and its objectives were straightforward: To preserve and 
create jobs and to promote economic recovery and to assist the 
most impacted areas by the recession. So my question is, Mr. 
Ashley, of the 6,000 applications that were submitted how many 
meet those top two objectives and are they in economically 
distressed areas.
    Mr. Ashley. Great. Thank you very much for that question. 
When we went and did our outreach with all of these different 
organizations to include the fire services, as well as the 
National Association Towns and Townships, Conference of Mayors, 
NGA, and all others, we did take their inputs into what did 
they mean by economically distressed. So one of the large 
factors inside of the program is, we are determining in the 
6,000 applications that are currently under review, is how many 
more firefighters is it going to put on a fire faster, how is 
it going to provide for firefighter safety and then also 
balancing that with a heavily weighted factor of is it coming 
from an economically depressed area. Because actually we want 
to do two things at the same time; one stimulate the economy 
with the jobs that are anticipated to be created under this 
program, but we also want the dollars to be going towards a 
place where it is going to provide an added capability to the 
fire service as well.
    Ms. Richardson. Well, Mr. Ashley, with all due respect, I 
represent California's 37th Congressional District. In that 
district is the city of Compton, which prior to this whole 
collapse, had an unemployment rate of 19 percent and now it 
exceeds 22 percent. So it is my intention, and the only reason 
why I voted for this bill, is that you would maintain the first 
two objectives of the stimulus. And so I would like to go back 
for you that although you have the goal that you have, and I 
agree with it and I think it is important, but your top two 
objectives of what we authorized for this bill is to preserve 
and create jobs and promote economic recovery, and to assist 
those most impacted by the recession. So again, I am going to 
ask you the question, do you know of those 6,000 applications, 
which ones meet these two criteria?
    Mr. Ashley. To some degree, I would imagine all 6,000 do.
    Ms. Richardson. Can you supply to this Committee a map of 
the 6,000 applications and where they in fact do follow this 
particular area and that they are in economically distressed 
areas?
    Mr. Ashley. Define economically as distressed.
    Ms. Richardson. Well, I think we through this----
    Mr. Oberstar. Excuse me, the Act defines economically 
distressed as described by the Economic Development 
Administration and the U.S. Department of Commerce. It is 
spelled out in the Act. It was my language.
    Mr. Ashley. We can provide that data as provided by the 
individual applicants that have put the applications in.
    Ms. Richardson. Thank you, Mr. Chairman. So what I would 
like, Mr. Chairman, as we can hear from the testimony, that 
although we took great pains in this Committee to ensure that 
it was clear, the actual implementation into the communities is 
not necessarily consistent. So if you would agree, maybe we can 
send a letter to the various agencies that are using these 
funds to reiterate what the objectives are of the Act that we 
passed, and to make sure if they are not clear, which it seems 
like today I don't think Mr. Ashley is clear, of what that 
definition is so we can ensure that the money is being spent 
appropriately. Further, Mr. Chairman, what I would like to 
suggest maybe that we request, this is an excellent tool, and I 
am using it in my district, and I am sure other Members are as 
well, but it might be helpful to expound upon it a little 
further and to include information of what were the existing or 
saved jobs that we achieve through these, through all of these 
projects.
    Mr. Oberstar. That information, if the gentlewoman will 
yield, will be available in our September report, end of August 
report.
    Ms. Richardson. Perfect. And if we could, since we have 
time to plan, the numbers I would be looking for are what were 
the existing and saved jobs that were preserved, what were the 
new jobs, which I think there is a category here, of these 
projects, how many are in economically distressed areas, how 
many are benefiting small businesses, minority owned and women 
businesses. And I know you are always on it, so I look forward 
to September of us having this information. And you were kind, 
Mr. Chairman. And I would like to say for the record when we 
talked about supporting this bill, you committed to the fact 
that yes, these were our objectives and you would work on our 
Committee to achieve it. So thank you, sir.
    Mr. Oberstar. And we are following up on that. And we have 
sent notices to all the agencies and to the States Departments 
of Transportation, transit agencies and all the rest, that that 
level of detail is expected in the end of August, mid September 
report on which we will have a further hearing.
    Ms. Richardson. Thank you sir.
    Mr. Oberstar. Mr. Carney, you have been very patient. You 
are one of the first ones here, and unfortunately one of the 
last to have at it with our panel.
    Mr. Carney. The trials of being a sophomore sir, but thank 
you for the recognition. I would like to continue, Mr. Ashley, 
along this vein with fire grants. There are 6,000 or so 
applications. What are you doing to make sure that there is 
going to be sort of regional equity when you are distributing 
these funds?
    Mr. Ashley. As you are aware, there is no authorization 
language. This is a brand new program start. What we set out 
for in the guidance was a goal to, but not a strict adherence 
to, the existing AFG allocations, which is pretty 
straightforward in looking at rural, volunteer, urban and such 
as a goal. Until we go through the complete review of the 
applications, looking at economic need and looking at does a 
community need a new fire station, we won't know exactly how 
that regional distribution will look.
    Mr. Carney. Well, there is an aspect of this, of the air 
money for the fire grants that is somewhat troubling to me. It 
is not that I disagree with its intent, but there seems to be a 
waiting toward sort of a response to terror.
    Mr. Ashley. No, sir, there is no categorical inclusion nor 
criteria that ties to any nexus of terrorism.
    Mr. Oberstar. Will the gentleman yield? That is not 
correct. Every volunteer fire department is required to submit 
in this application for funding a showing of connection to 
Homeland Security and terrorism. And I have raised that issue 
with the previous administration and with Secretary Napolitano. 
And that is unnecessary and an obstacle and an impediment and 
it is wrong, and I am glad you raised that point.
    Mr. Carney. Well, I appreciate it. Because as we sit here 
at this moment, I have been on my BlackBerry with my staff. 
Several counties in my district are now under flood warnings. 
And it is the local fire that responds to these floods. And 
they are disadvantaged if they have to find some terror nexus 
here in terms of getting funds. Now, that is quite a concern to 
me and to the 14 counties in the rural areas that I represent. 
And these are the local community volunteer responders that we 
are trying to help here. And they will be pulling on their 
boots and have pulled on their boots and are monitoring the 
creeks and sandbagging right now. And they are doing it with 
frankly antiquated equipment. And if they are disadvantaged 
because they can't find a terror nexus in this particular job, 
I think we need to rethink this whole thing.
    Mr. Ashley. If I might, sir, there is no selection criteria 
under any of these grants that require any of the categories 
when you go through the 12 categories of what they are applying 
for that ties it to terrorism.
    Mr. Carney. Well, the administration's fiscal year 2010 
budget seems to go the other way on that. I think we need to 
get to the bottom of this. I also had a question for Mr. Salt 
and Mr. Costa. When we talk about projects, and Mr. Salt this 
probably more for you, do we look at life cycle costs of a 
project when the Corps wants to do something.
    Mr. Salt. As the project is formulated and brought to this 
Committee for authorization the overall analysis includes a 
life cycle analysis of the project.
    Mr. Carney. Do we consider alternative sorts of 
construction materials, maybe composite materials, versus steel 
or iron or any other kind of materials in terms of what it 
costs over the life cycle of a project.
    Mr. Salt. I think you should expect us to do that. I can't 
report to you how well we are doing those sorts of things. I 
would want to say yes that is part of our responsibility.
    Mr. Carney. Okay. Very good. Well, if that is not the case 
truly, perhaps Mr. Chairman, we could look into drafting some 
legislation to that effect. Thank you very much. Mr. Costa do 
you.
    Mr. Costa. Congressman yes, we do include life cycle cost 
analysis in basically choosing our project's materials. It is a 
pretty core part of how we look at doing our business.
    Mr. Carney. And do you look at--Mr. Salt.
    Mr. Salt. I just wanted to as a follow-on to my answer, as 
part of our regular process there is a value engineering step 
where outside experts take a look at our designs and make the 
kinds of cost saving recommendations that you are talking about 
as appropriate.
    Mr. Carney. Mr. Costa, go ahead.
    Mr. Costa. Well, I have just been handed a card.
    Mr. Carney. So it is good.
    Mr. Costa. No, it is good, it is good. That this Committee 
changed the law so that--you all extended the life cycle 
analysis from 25 to 40 years, which, of course, is helpful 
looking at new energy and management kinds of techniques.
    Mr. Carney. And building materials and things of that 
nature?
    Mr. Costa. Yes.
    Mr. Carney. Very good. Excellent. My time has expired. You 
are very patient with me Mr. Chairman. Thank you so much.
    Mr. Oberstar. I interrupted you. You can have another 
minute.
    Mr. Carney. I am done. Thank you.
    Mr. Oberstar. Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And thanks also Mr. 
Chairman for your attention and this Committee's attention to 
oversight, transparency and accountability, because I think it 
is really important, especially for taxpayers and for job 
seekers. I would note that just yesterday my State of Maryland 
came in sort of number one in its transparency and 
accountability for telling the public and telling the story in 
our State Web site about the expenditure and allocation of 
Recovery Act funds, where they are going, in very good detail. 
It was actually number one rated among all the States by an 
independent nonprofit group Good Jobs First. But I think it 
highlights what our obligation is here on this Committee, to 
look in great detail about how these funds are being expended. 
I have a question really directed--a lot of questions. But I am 
going to direct these to Mr. Hooks, about the clean water State 
revolving funds.
    I look down the list, and although in your testimony you 
cite 45 programs across the country that have--I guess for 
which funds have been obligated. I counted in our 
Transportation and Infrastructure Committee chart that only 24 
States out of all of the States and territories have actually 
obligated funds. And when you look at the charts across 
obligations, contracts put out to bid, jobs created, there are 
a lot of zeroes there. And so I am really concerned about 
whether we are meeting our goals and deadlines and what is 
happening to those resources, because this is about creating 
jobs. And I just don't see that except in really a handful of 
States. And I am concerned about that. Also, I wonder if you 
could describe for us ways that we can track the State 
Revolving Fund implementation progress.
    And then I wonder if you could also describe for me what 
actually is happening and what projects are going on regarding 
the green water--the green infrastructure 20 percent 
allocation. I would love to see a State-by-State analysis of 
those specific projects because I think it would actually help 
this Committee.
    Mr. Hooks. I think there has been some confusion in terms 
of the use of the term obligation. While we have obligated our 
resources to 45 States the States also obligate monies to 
borrowers, and I think there might be a little bit of a 
disconnect in terms of the numbers. And we would be happy to 
try to work with you to try to reach some clarification.
    Ms. Edwards. So you have actually obligated funds for 45 
States?
    Mr. Hooks. Correct. We have made those resources available 
to 45 States. There are six States that are still in the 
balance.
    Ms. Edwards. And so where are the contracts then?
    Mr. Hooks. The States are now going through their bidding 
process as well. Some States have already started. There is a 
little bit of a lag in terms of outlays, which I mentioned 
earlier. But between identifying the borrowers that have been 
selected, putting these contracts out for bid and then 
proceeding on the work, that has taken some time. Right now 
based on what we are seeing now, bear in mind the reporting 
requirements from the States, at least to the Federal 
Government, doesn't begin until October. We have been launching 
a pilot at EPA to start to go out and start to receive some of 
these State specific and recipient specific data to try to 
identify really what is happening on the ground. And so back in 
terms of our tracking, we will have much more data, much more 
comprehensive data, come October.
    Ms. Edwards. So are you saying to me though that when we 
look at the number--the amounts of obligations and the number 
of contracts put out to bid that that is incomplete.
    Mr. Oberstar. Would the gentleman yield--gentlewoman yield? 
See, this is the problem. This is budget speak. Obligation is a 
budget term of art. All it does is make a step, it doesn't 
accomplish anything, which is why I insisted in our submission 
to the Recovery Act program, and we are crafting it in the 
Committee, that the funds be under contract within 90 days at 
the behest of States, at the urging and complaint of the Senate 
whose knees buckled under this issue. And the big think pieces 
over in the White House in OMB they submitted this budget speak 
term obligate. Obligate just says, yep, we are going to put the 
money onto this project, that is all. You know, for the highway 
projects the States just signed off and said we obligate the 
money for this project. That doesn't put a single contract on--
doesn't put a single project under contract.
    Ms. Edwards. Well, Mr. Chairman, if you would yield, this 
is exactly my question, because when I look at the number of 
contracts that are out to bid, they are just State after State, 
zero after zero, the number of jobs that are created or 
sustained zero after zero. And if we are out there telling the 
American people we, you know, put out all of this money that is 
being paid for by their children and by their grandchildren, 
surely we have got to be creating jobs. And so I think if that 
data is out there, it really would behoove the administration 
to let us all know that, because it looks as though somebody is 
just holding onto the money and it is not really going to these 
projects. I look at my State of Maryland, for example, and what 
I see is that the fund has $19 million. There is obligated 
$7,127,000. And then after that it is just projects under 
contract zero, recovery funds associated with projects under 
contract zero, projects in which work is begun zero, direct 
job's total job hours zero, zero, zero. And that is State after 
State. And I just think that--I mean, I am very supportive of 
the State Clearwater revolving fund, but we have got to create 
jobs with these funds. This is really intense infrastructure. 
We know that it is needed infrastructure. And I just think at 
some point or other the American public is going to start 
asking where are the jobs, and we deserve to have an answer for 
them.
    Mr. Hooks. I agree with you, which, in part, is why I 
talked earlier about kind of the three phases that I now view 
this work in. Again, before it was make the monies available, 
and then I thought we would move into the management and 
oversight of what the State was doing. Now, however, you are 
right, you are absolutely right, we actually are concentrating 
our efforts to try to assist the States in breaking down any 
sort of barriers that they might have, whether that is with Buy 
America provisions, Davis-Bacon, getting their bids out. We are 
making our contracts available, our contracting resources 
available, we are actually making our contract vehicles 
available in one state's instance, so we are trying to do 
whatever we can to assist the States in facilitating getting 
the work started.
    Ms. Edwards. And so when we see your--you said that there 
will be reports back from the States in October because we 
haven't come to that deadline yet. I guess I am presuming 
looking at the charts that we have here all of a sudden we are 
going see a glut of projects because there are very few. And 
hopefully with our jobless numbers and stuff that means that 
people will have jobs in the fall.
    Mr. Hooks. We anticipate these numbers starting to ramp up 
significantly over the next couple of months. They have gone up 
85 percent just over the last four weeks. And I suspect again 
that the numbers actually in the fall will be dramatically 
different.
    Ms. Edwards. Well, hopefully we are not then getting into a 
winter season which then we can't do these jobs in States that 
have climate issues. And so we thought, I guess we thought in 
this Committee, and I am greatly exceeding my time, that given 
the spring time frame and the deadlines for contracts going out 
that we would actually be able to get to those States that have 
seasonable and climate issues. And it feels like we are bumping 
right up against that yet again. And so there is the prospect 
that in some of these States really work is not going to be 
able to happen until next spring, which that is a lot of time 
for somebody who is out of a job.
    Mr. Hooks. The legislation does specify that all of the SRF 
work under the clean water and drinking water, that they all be 
under contract or construction within one year, February 17, 
2010. And based on what my staff is telling me, based on the 
personal visits that we are making, all of the States will meet 
that goal.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Oberstar. Just before I go to Mr. Mica, I want to again 
underscore this issue of budget speak term, the budget speak 
term obligation. If our language had prevailed, there would 
have been no escape hatch. States and the executive branch 
agencies would have had to have projects under contract within 
90 days or lose the money to someone who could use them. And 
your point is well taken. Mr. Mica commented on it and said, 
well, you are right on. Well, that is the way most of the 
Members of the Committee feel. We committed these funds with 
the anticipation they put people to work. But when the OMB got 
into it and when the White House staff got into this thing and 
when the Senate stuck their nose into it and said, oh, well, 
you have to give them a little leeway that they can obligate 
the funds and have 120 days to do that, that obligation is a 
very different term from having the project under contract. It 
was an escape hatch. Mr. Mica.
    Mr. Mica. Well, I do have to compliment the gentlelady from 
Maryland. Her questioning and commentary was so refreshing. And 
you know we are going to go home in a few hours, whether it is 
up the road or to Florida, and you have got to face people who 
haven't had jobs for months. And you go back and say, well, we 
have got $11 billion unobligated here, we have got billions 
here, and all they want is an opportunity to work and provide 
for themselves. And that solves all the other problems, it 
really does. But you two are magnificent, Ms. Edwards and Mr. 
Chairman. I want to make sure that gets in the record.
    Mr. Oberstar. Thank you.
    Mr. Mica. A final thing, and this is just a point, 
particularly to the agency folks that are trying to get the 
money out. We will never get projects cheaper than you can 
right now. There is a fire sale going on to do every kind of 
project in this country. People want business, they want--
contractors want work and contracts. And in my district--I met 
with my district transportation secretary who covers my area of 
Florida. He said the prices they are getting in are 25 and 30 
percent cheaper than what they had budgeted, which is a fire 
sale to do these projects. So getting this money out now is so 
important. And I am just asking you all to find ways--to 
support Ms. Norton here, St. Elizabeth's, I have a project that 
I am interested in doing. NoMa, right to the north of Union 
Station, we will never find real estate bargains, opportunities 
to renew leases, opportunities to save the taxpayers billions 
of dollars and get more for less.
    Now, we can screw around and let this go on to next year. 
You already see the signs of some recovery in spite of what 
government has done, but maybe we could wait longer and pay 
more. Again, hopefully you all have taken away from us the 
message, particularly again the agencies. I appreciate GAO's 
honest assessment here today too. I yield back, Mr. Chairman.
    Mr. Oberstar. Thank you. That is very, very important. Now 
I committed to Ms. Norton that she could pursue her line of 
inquiry.
    Ms. Norton. I appreciate that Mr. Chairman, because I did 
not get to ask Mr. Ashley a question. I do want to associate 
myself with the remarks of Ms. Edwards and the Ranking Member, 
although I promise the Ranking Member we will not buy a 
building in NoMa. That is what he was really talking about, but 
he is still working on it, and I always work with him. But a 
fire sale is exactly correct. That is why I pressed the GSA not 
only to begin work on the first building, the Coast Guard 
building, but for goodness sake, begin work on the same grounds 
on the rehabilitation of other buildings which are not 
construction but which also make jobs.
    Now, Ms. Edwards' question really went to what I asked Mr. 
Costa to do. On a monthly basis, to get us obligation on one 
line and expenditure on the other, because those are the--that 
is the real deal. So although GSA and I commend you, Mr. Costa, 
have made--have set goals and are meeting the goals for 
obligation, I will require a monthly expenditure report as 
well.
    Mr. Costa. The only distinction I would add is that that 
billion dollars that we have obligated, they are contract 
awards.
    Ms. Norton. But when the Ranking Member asked you about $34 
million you were not able to say that there was more money 
being expended in light of the billion dollars.
    Mr. Costa. Because we made progress payments, that is 
exactly right.
    Ms. Norton. But even so, if there is $1 billion out there 
and somebody is being paid to do work, you would expect a whole 
lot more than $34 million to show up at this time. If you want 
to explain that to staff, we will be glad to hear it, but that 
is an important point. I want to ask Mr. Ashley something that 
has been on the mind of this Committee, especially the 
Chairman, and on the mind of me with respect to my work on the 
Homeland Security Committee. I am not sure it applies to 
stimulus funds, although it is related to Mr. Carney's 
question, and that is the award of fire grants in relation 
apparently to terrorist programs.
    Now, the fire grants are for basic fire fighting capability 
because they are for all hazards. You don't go to a hazard that 
they haven't called out your firefighters as well. We had to go 
after the last administration persistently for attempting to 
use the President's budget to focus fire grants on terrorism. 
The Congress, in a bipartisan fashion, consistently rejected 
this attempt by the prior administration. I was very 
disappointed to see that in the 2010 budget of the new 
administration what appear to be, unless you can show me this 
is not the case, a continued attempt to focus fire grants on 
preparedness by words such as in the event of a terrorist 
attack as opposed to all hazards, which, of course, deals with 
terrorist attacks, as well as with what we in this country face 
99.9 percent of the time, which are hazards unrelated to 
terrorism.
    Can you explain why the administration's budget describes, 
and apparently attempts to continue to focus fire grants as a 
program on preparing fire departments for terrorism 
notwithstanding the very clear language of the law and 
congressional intent as repeated several times over during the 
last administration. And just let me ask you straight out, does 
the fire grant program today, whether for the stimulus package 
or for fire grants generally, require or give any preference to 
fire departments that show a nexus to terrorism in their 
applications.
    Mr. Ashley. None whatsoever.
    Ms. Norton. So you say that is completely gone. Why did the 
administration's 2010 budget request attempt in some language 
to focus on terrorism then.
    Mr. Ashley. I wasn't party to those specific discussions on 
the request as far as you know tying the 2010 budget to whether 
it is terrorism or risk-based allocations of that nature, so I 
was not part of those discussions.
    Ms. Norton. I wish you would carry back then to FEMA the 
Subcommittee's very substantial interest in making sure that 
all hazards are covered, firefighters go out for all hazards. 
And we intend to enforce that we have the backing of the entire 
Congress on it. We don't want to repeat that with this 
Congress. Thank you very much, Mr. Chairman. I thought it was 
my obligation to get that question on the record.
    Mr. Oberstar. I appreciate you raising that. And I also 
appreciate the questions raised by Mr. Carney on this 
particular issue. I raised it, and I have been incensed about 
this matter, because in 2008, there was a fire caused by a very 
negligent camper within the bounty waters canoe area wilderness 
of the Superior National Forest in northeastern Minnesota in 
Cook County, right, oh, just a mile or so from the Gunflint 
Trails, so it was in the wilderness. These campers left the 
fire going and left their camp site. Wind came up, blew the 
sparks and flame into a nearby brush and a fire broke out of a 
significant amount. And the volunteer fire department rushed to 
the site with their pumper, which they knew was defective, and 
the pumper truck could not operate. It could not draw water 
from the lake, could not attack the fire. Maybe they would not 
have been able to contain the whole thing, but I think they 
would have significantly impeded its progress so that it could 
have been contained to just a few acres. Instead 76,000 acres 
burned, half in the U.S., half in Canada.
    When I went up for a town meeting with all the residents, 
134 structures burned to the ground. Fortunately, there were no 
fatalities and no injuries. And part of the reason for that was 
that FEMA's preparedness program, the mitigation program, had 
supplied funding for homeowners and residences to install 
sprinkler systems to draw water from lakes and underground 
aquifers. And those homes and facilities that had availed 
themselves of the funding put the systems, the sprinkler 
systems into work and they saved those structures, but others 
burned to the ground.
    And I asked why, why didn't you have an adequate pumper 
truck? And they said because we were turned down 2 years ago, 
and again this year because we did not show a connection 
between our pumper truck and Homeland Security. That is about 
the remotest place in the world or in America, except perhaps 
Nome, Alaska, that a terrorist attack is likely to occur. So I 
called Mr. Paulson in, your predecessor over there, and raised 
literal hell with him over this. It turned down twice because 
it doesn't show a connection to terrorism. He said, well, we 
will address that, we will get to it. There were a number of 
other small projects, small funded, $2,500, $25,000, I think a 
pumper truck probably runs a little bit more than that, that 
were turned down because they didn't have, they didn't show a 
nexus to, in effect, terrorism. Our terror in the northland is 
blizzards, fire, high winds, a storm that blew down 26 million 
trees. That is our terror. It happens every year. We never had 
one of these terrorist attacks in the northland.
    So I asked two of the fire departments. These are the 
documents they have to file. And I have just spent the last few 
minutes going through there. There is no current showing, and I 
am happy to see that, no showing requested of a nexus to 
terrorism. Well, whoever did it, thank you for that, whether it 
was Paulson on his departure or the new team. You have at least 
addressed that issue. But I don't want to see that appearing 
again in a firefighter grant application. Can you assure me 
that won't happen?
    Mr. Ashley. Well, between now and August 30th I can.
    Mr. Oberstar. Oh, you are leaving?
    Mr. Ashley. Yes, sir.
    Mr. Oberstar. Good Lord. Well, you just get these people 
trained up and then they leave.
    Mr. Ashley. I stayed past January 20th so.
    Mr. Oberstar. All right. Well, thank you for that. Let's 
see, I had some other. The Corps, you have 800 projects, you 
have outlays of $84 million. When do you expect those outlays, 
that is actual payments to contractors to ramp up from that 
number, Mr. Salt?
    Mr. Salt. Sir, I think I really like your chart. I think 
your chart makes the point that in our case over 90 percent of 
our obligations are to contracts, to private sector 
contractors. And as your chart points out, you award the 
contract, they then hire, they then order materials, the money, 
the stimulus starts to happen. After that, they send the 
request for progress, payments or bills. And so the outlays 
always lag. The other issue this chart raises which is when the 
State is involved it goes up, even when you get down to the 
actual contract, the points you were making earlier, there is 
another lag behind that that is there. I think there are two 
important things:
    Number one, the points you made, when you award the 
contract, the work starts, people start getting hired, all 
those things start to happen. And secondly, people in the 
community start to see good things happen. The other point that 
you made, that these are for things that otherwise wouldn't get 
done, that they start to see that work happening, and I think 
that starts to create the sense that this is happening. And 
although the outlays are important, I mean, we must pay, I 
would say that the real important part is up at the other end 
of that.
    Mr. Oberstar. The awarding of contracts is critically 
important here. And each of you has submitted, each of you 
agencies has submitted that information, and I invite you to 
supplement your current testimony in the coming months with 
updates as we have requested on our Committee Web site of 
contracts not only awarded, bids awarded and projects under 
contract, but actual work underway, supplement that 
information. This is a lagging indicator. I mean, the highway 
program, the Federal Government did all of its work, DOT did 
its job, the Federal highway did its job and notified the 
States. Next it is up to the States. And if there is some red 
tape, we want to know about it. They had plenty of time to tell 
us from December until February, from actually September of 
2008 when we passed, the House passed the first stimulus bill, 
it died in the Senate, but they had plenty of time to say, 
well, we might have this problem, we might have that paper work 
problem. They never did. Not a single one of them came in to 
us. It was yes we can, it was a we-can-do-this.
    So Mr. Mica and I are going to send a letter to these 
States who are lagging behind and say what is your problem, 
what is the red tape, what are the obstacles. We are going to 
find that out. But meanwhile, you tell us, you are through the 
first phase, contract is awarded, update those, update that 
information by the third week of August, by the end of the 
third week of August.
    Ms. Siggerud, do you agree with that?
    Ms. Siggerud. In terms of----
    Mr. Oberstar. That is not the right question. Would you 
comment on what I just said?
    Ms. Siggerud. Yes, I can comment.
    Yes, I can comment. We are seeing, with regard to the 
lagging concept obligations and then moving to the outlays, we 
are seeing a pretty significant uptick--that was July--as we 
are are hitting the construction season, and as States have had 
time to put these bids out for contract, and I expect to see a 
real difference as we go forward over the next couple of months 
in that area.
    But there are still a number of projects that have not been 
obligated and so there will still be--this will play out over 
several years, especially the more complicated projects, as we 
mentioned, that will need to have a longer bid time and that 
will take longer to construct.
    Mr. Oberstar. I know there was some hand-wringing by the 
economists who said, well, as constructed, and with these time 
constraints, the Federal Highway Administration, the State DOTs 
and transit agencies are only going to do those projects that 
are quick-hitters. That is what we expected.
    The longer-term projects are going to be covered in our 
upcoming bill, 6 years.
    Ms. Siggerud. And, Mr. Oberstar, that is what we are 
seeing. That is why you see such a percentage of repaving 
rehabilitation, because these are the projects that could be 
built quickly and done during this construction season.
    Mr. Oberstar. That is what we want to see.
    Mr. Mica, do you have any closing statements?
    Mr. Mica. No, just thank you. I think it was a very 
informative hearing.
    Mr. Oberstar. I appreciate that, and I appreciate the 
contribution that each of you has made.
    And for the record, our next hearing will occur about the 
third week of September and we will make a further in-depth 
review. Thank you again for your participation.
    Mr. Ashley, I wish you well in whatever your next pursuit 
is.
    Ms. Siggerud, keep your eye on them.
    Ms. Siggerud. Will do.
    Mr. Oberstar. The Committee is adjourned.
    [Whereupon, at 1:08 p.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






</pre></body></html>
